			NO.
IN THE
SUPREME COURT OF THE UNITED STATES
JAMIE SWARTZ and SANDRA SWARTZ
							
v.

Petitioners

HEARTLAND EQUINE RESCUE
RANDY LEE
JODI LOVEJOY
JO CLAIRE CORCORAN
DEBBIE MOORE
KELLY JO FITHIAN-WICKER
MARNIE BENNETT
MEGHAN COMBS
Respondents
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Seventh Circuit
APPENDIX FOR
PETITION FOR WRIT OF CERTIORARI

				Dale W. Arnett				
				
Attorney of Record for Petitioners
				IN Attorney No. 13919-68
				Attorney at Law
				102 E. Hospital Drive
				Winchester, IN 47394
				Phone (765) 584-2507
				Fax (765) 584-2068
				Email: larnett1@frontier.com

TABLE OF CONTENTS
Page
Table of Contents

1

Opinion – 7th Circuit
Case No. 18:3260 10/11/2019…………………………..

4

Final Judgment – 7th Circuit
Case No. 18:3260 10/11/2019…………………………..

15

Order – S. Dist. Indiana
Case No. 4:16-cv-00095-TWP-DML 11/6/2019………

16

Final Judgment – S. Dist. Indiana
Case No. 4:16-cv-00095-TWP-DML 11/6/2019………

17

Amended Order on Defendants’
Motions to Dismiss Plaintiff ’s Second
Amended Complaint and Motions for
Judgment On the Pleadings – S. Dist. Indiana
Case No. 4:16-cv-00095-TWP-DML 9/26/2017………

18

Entry on Defendants’
Motions for Summary Judgment and
Motion to Strike Plaintiffs’ Surreply
S. Dist. Indiana
Case No. 4:16-cv-00095-TWP-DML 9/27/2018...........

37

Final Judgment – S. Dist. Indiana
Case No. 4:16-cv-00095-TWP-DML 9/27/2018...........

56

Federal Constitutional Provisions
4th Amendment.............................................................
14th Amendment…………………………………………..

57
57

Federal Statutes
42 USC §1983…………………………………................

57

1

TABLE OF CONTENTS continued
State Statutes
Indiana Code 2018 IC 35-46-3-6
Impoundment of animals; probable cause hearings;
penalties; custody; bond…………………………………. 58
Second Amended Complaint
S. Dist. Indiana 01/09/2017.........................................

60

Probable Cause Affidavit
Washington County Indiana
Circuit Court 06/13/2014.............................................

67

Order to Seize
Washington County Indiana
Circuit Court 06/13/2014.............................................

67

Order Affirming Probable Cause
and Issuance of Summons
Washington County Indiana
Circuit Court 06/20/2014.............................................

68

CCS for Cause No. 88C01-1406-CM-000325,
State v. Sandra Swartz; minutes
Washington County Indiana
Circuit Court 07/24/2014.............................................

69

Entry on Hearing January 15, 2015
Washington County Indiana
Circuit Court 01/30/2015.............................................

70

Order Granting Authority
Washington County Indiana
Circuit Court 04/14/2015.............................................

71

Order on Pretrial Diversion Agreement
Washington County Indiana
Circuit Court 11/04/2015.............................................

72

2

TABLE OF CONTENTS continued
Order Granting Motion to Dismiss
(Jamie Swartz)
Washington County Indiana
Circuit Court 03/21/2016.............................................

73

Order Granting Motion to Dismiss
(Sandra Swartz)
Washington County Indiana
Circuit Court 03/21/2016.............................................

74

Transcript in the Washington County Circuit Court
Cause No. 88C01-1406-CM-000325 &
88C01-1406-CM-000326 04/02/15……………………..

75

3

In the
United States Court of Appeals
For the Seventh Circuit
____________________
No. 18-3260
JAMIE SWARTZ, et al.,
v.

Plaintiffs-Appellants,

HEARTLAND EQUINE RESCUE, et al.,
Defendants-Appellees.
____________________
Appeal from the United States District Court for the
Southern District of Indiana, New Albany Division.
No. 16-cv-00095 — Tanya Walton Pratt, Judge.
____________________
ARGUED SEPTEMBER 25, 2019
DECIDED OCTOBER 11, 2019
____________________
Before FLAUM, SYKES, and SCUDDER, Circuit
Judges.
FLAUM, Circuit Judge. The plaintiffs, Jamie and Sandra Swartz, allege a conspiracy among multiple state and
private defendants to deprive them of their property, namely, several goats and horses. The district court dismissed the
private defendants and later entered summary judgment
in favor of the state defendants. We now vacate the district
court’s rulings and remand this case for dismissal due to a
lack of federal subject matter jurisdiction. The Swartzes’
claims are inextricably intertwined with state court judgments, requiring dismissal under the Rooker-Feldman doctrine.
4

I. Background
Between 2011 and 2013, the Swartzes acquired several horses, goats, and a donkey for keeping on their hobby farm in Washington County, Indiana. In April 2013, the
county’s animal control officer, defendant Randy Lee, contacted defendant Dr. Jodi Lovejoy (a veterinarian with the
Indiana State Board of Animal Health) to ask for her help
evaluating a thin horse he claimed to have observed on the
Swartzes’ property.
Lee and Lovejoy visited the Swartzes’ farm to evaluate
the animals on four occasions, in May 2013, January 2014,
February 2014, and June 2014. On each occasion, Lovejoy
assessed the horses and goats using body condition scoring
systems that categorized them based on the amount of muscle and fat on their bodies. Lovejoy kept detailed notes of
each visit and created Animal Case Welfare Reports for the
animals. Following the fourth visit, on June 4, 2014, Lovejoy reported a significant decline in the animals’ welfare and
expressed concerns about the conditions in which the goats
were being kept. Lovejoy stated in her report that it was unlikely the Swartzes were able or willing to adequately care
for the animals and that the livestock was in immediate
jeopardy.
On June 13, 2014, Lee used Lovejoy’s report to seek
(in a standard, ex parte proceeding) a finding of probable
cause to seize the animals, stating that Lee “has been investigating the welfare of certain animals” and “believes that
probable cause exists that the crime of neglect of a vertebrate animal has been committed and that pursuant to IC
35-46-3-6 he has the authority to seize said animals … .” The
Superior Court of Washington County, Indiana determined
that there was probable cause to believe animal neglect or
abandonment was occurring and entered an order to seize
the animals. The next day, the animals were seized from
the Swartzes’ farm by Lee and defendant Meghan Combs
(a member of the Washington County Sheriff ’s Office), and
individuals associated with Uplands Peak Sanctuary and
5

Heartland Equine Rescue (organizations dedicated to caring
for abandoned or neglected animals).1
On June 20, 2014, the state of Indiana filed three
counts of animal cruelty charges against the Swartzes. (State
of Ind. v. Sandra Swartz, Case No. 88C01-1406-CM-000325,
Washington Cty. Cir. Ct.) The probable cause affidavit and
order were refiled on the criminal docket the same day. The
Swartzes retained counsel and were able to take their own
discovery in the state court case, including deposing Lovejoy.
On October 21, 2014, the state filed a motion for authority
to find permanent placement for the Swartzes’ animals. On
January 15, 2015, both the state and the Swartzes appeared
(with their counsel) to argue the motion for permanent
placement. After that hearing, the court denied the Swartzes’ motion for a probable cause hearing, noting that it had already affirmed the previous finding of probable cause when
the criminal charges were filed on June 20, 2014. The court
also denied the state’s motion for authority to permanently
place the animals at that time, instead requesting that the
state’s veterinarian or its designee make a recommendation
concerning the disposition of the animals. On April 2, 2015,
the court held a second hearing at which it ordered permanent placement of the animals for adoption. The court subsequently signed the placement order on April 14. After a
hearing on August 27, 2015, at which both parties appeared
by counsel, the court entered a further order requiring the
Swartzes to reimburse Heartland for the care of the animals
following the seizure, totaling $928 ($6,828 less the $5,900
value of the animals themselves).
The state deferred prosecuting the Swartzes as part
1
Most of the remaining defendants are associated with these
animal welfare groups: Michelle Pruitt is the co-owner and co-founder of Uplands, while JoClaire Corcoran, Debbie Moore, and Kelly Jo
Fithian-Wicker worked under the Heartland name. The Swartzes allege
that prior to the seizure, defendant Marnie Bennett trespassed on their
property to inspect the feed stocks for the Swartzes’ animals; they also
claim that Bennett is a “close friend and confidant of” Moore and “encouraged” Moore, Combs, and Lee to seize their livestock.

6

of a pretrial diversion agreement, which the court entered
in November 2015. The Swartzes agreed to pay pretrial diversion fees, not commit or attempt to commit any crimes,
report to the prosecutor’s office as directed, and follow the
court’s order regarding reimbursing Heartland for the care
of the animals.
The Swartzes then filed this federal lawsuit, alleging
“that the defendants and all of them, acted in concert to cause
certain livestock of Plaintiffs to be seized by the Washington
County Animal Control Officer on less than probable cause
and distributed to Uplands Peak Sanctuary and Heartland
Equine Rescue based on false information and improper diagnostic analysis contrary to the 4th and 14th Amendments
… .” The district court dismissed or entered summary judgment against the plaintiffs on all claims. The Swartzes now
appeal.
II. Discussion
Before we may review the district court’s orders in
this case, we first must determine whether it had subject
matter jurisdiction over the Swartzes’ claims given the related state court proceedings. Federal district and circuit
courts generally lack jurisdiction to review the decisions of
state courts. The Rooker-Feldman doctrine “precludes lower
federal court jurisdiction over claims seeking review of state
court judgments … no matter how erroneous or unconstitutional the state court judgment may be. The doctrine applies
not only to claims that were actually raised before the state
court, but also to claims that are inextricably intertwined
with state court determinations.” Kelley v. Med-1 Solutions,
LLC, 548 F.3d 600, 603 (7th Cir. 2008) (citation and internal
quotation marks omitted).
The case before us raises a facial Rooker-Feldman
issue, because finding in favor of the Swartzes would necessarily call into question the state court’s probable cause
finding, placement judgment, and the terms of the Swartzes’ pretrial diversion agreement. Although no party raised
7

the Rooker-Feldman doctrine until appellate briefing, this
Court may — indeed, must — consider it. “The Rooker-Feldman bar is jurisdictional; violations of it cannot be waived
and thus preclude a court from considering the merits of the
claim.” Lennon v. City of Carmel, 865 F.3d 503, 506 (7th Cir.
2017).
A. “Inextricably Intertwined” Issues
We explained the rationale and application of the
Rooker-Feldman doctrine in Jakupovic v. Curran:
Lower federal courts are not vested with appellate authority over state courts. The Rooker-Feldman doctrine prevents lower federal
courts from exercising jurisdiction over cases
brought by state court losers challenging state
court judgments rendered before the district
court proceedings commenced. The rationale
for the doctrine is that no matter how wrong a
state court judgment may be under federal law,
only the Supreme Court of the United States
has jurisdiction to review it. The initial inquiry, then, is whether the federal plaintiff seeks
to set aside a state court judgment or whether
he is, in fact, presenting an independent claim.
To make this determination, we ask whether
the federal claims either “directly” challenge a
state court judgment or are “inextricably intertwined” with one.
850 F.3d 898, 902 (7th Cir. 2017) (citation and internal quotation marks omitted). The Swartzes’ § 1983 claims are not
direct challenges to any state court order, so to be implicated by Rooker-Feldman they must be “inextricably intertwined” with a state court judgment. Id. Because the injury
the Swartzes protest—the seizure and subsequent permanent placement of their livestock—was effectuated by several orders of the Superior Court of Washington County, their
claims are inextricably intertwined with state court judg8

ments.
The state court’s finding of probable cause and ordered
seizure of the animals produced the injury claimed by the
Swartzes. This is true even though the Swartzes now claim
that the injury originated in a conspiracy among mixed state
and private actors. To find that the defendants acted wrongfully in seizing the animals would call into question the state
court’s judgment that there was probable cause the animals
were being neglected under Indiana law. The same problem
arises with the court’s permanent placement determination,
reimbursement order, and the pretrial diversion agreement:
if the animals were not being neglected, there would be no
basis for permanently housing them elsewhere or for requiring the Swartzes to reimburse Heartland for the animals’
care.
When a state court judgment is the cause of a plaintiffs’ injury, Rooker-Feldman bars federal review. “If the injury alleged resulted from the state court judgment itself,
Rooker-Feldman directs that the lower federal courts lack
jurisdiction.” Crestview Vill. Apartments v. U.S. Dep’t of
Hous. & Urban Dev., 383 F.3d 552, 556 (7th Cir. 2004). This
is the case even when plaintiffs allege that the state court
judgment was obtained through the defendants’ bad faith
actions. In Crestview, for example, the plaintiff alleged that
a conspiracy among city officials and private actors led to a
state court ordering plaintiff to remedy alleged building code
violations. Id. at 554–55. Despite the plaintiff ’s invocation of
a civil rights conspiracy, this Court held that the injuries in
the complaint were the practical result of a state court judgment, and thus barred under Rooker-Feldman:
Each count of Crestview’s federal complaint alleges that, as a result of a conspiracy involvingdefendants, it was injured in that it was “forced
to defend unsubstantiated lawsuits, and excessively harsh administrative actions....” [] Thus,
in essence, Crestview is challenging as baseless the state court order requiring Crestview
9

to cure the building code violations. After all,
Crestview’s alleged injury—having to defend
unsubstantiated lawsuits—was only complete
after the state court entered the order and
thereby made an implicit finding that the suit
was not unsubstantiated.
Id. at 556; see also Garry v. Geils, 82 F.3d 1362, 1368 (7th Cir.
1996) (“The plaintiffs are essentially claiming injury due to
a state judgment against them—the judgment condemning
a portion of the Garry property. … While the plaintiffs complain that the defendants moved the proposed ditch location
as an act of political retaliation against them, the injury alleged was only complete when the state court actually condemned the property.”); Wright v. Tackett, 39 F.3d 155, 158
(7th Cir. 1994) (“Wright may not seek a reversal of a state
court judgment simply by casting his complaint in the form
of a civil rights action.”) (internal quotation marks omitted).
In Wright, the plaintiff alleged a conspiracy of state
and private actors in violation of § 1983 based on the “bald
assertions” that courts ruled against him during a foreclosure, and that the private defendants “unlawfully participated in the foreclosure actions.” Id. at 157. We held that
there was no federal jurisdiction over the plaintiff ’s § 1983
conspiracy claims: “Although Wright’s complaint presented several constitutional—albeit conclusory—claims, those
claims are inextricably intertwined with the various state
court determinations handed down previously.” Id.
The Swartzes’ alleged conspiracy, in which Lee,
Lovejoy, and others worked in concert to give false claims
of animal neglect to the court, is the type of claim routinely dismissed under Rooker-Feldman, as were the claims in
Crestview, Garry, and Wright. See, e.g., Matter of Lisse, 921
F.3d 629, 641 (7th Cir. 2019) (“Nora’s repeated fraud accusations do not change the calculus. … Federal courts do not
exist to provide disappointed state-court losers a second bite
at the apple.”); Mains v. Citibank, N.A., 852 F.3d 669, 677
(7th Cir. 2017) (holding that plaintiff ’s conspiracy claims
10

were “barred by Rooker-Feldman, because they are dependent upon and interwoven with the state-court litigation”);
Harold v. Steel, 773 F.3d 884, 886–87 (7th Cir. 2014) (rejecting plaintiff ’s contention that false statements to court
could be separated from resulting order, because “[n]o injury
occurred until the state judge ruled against” plaintiff); Kelley, 548 F.3d at 605 (“We could not determine that defendants’ representations and requests related to attorney fees
violated the law without determining that the state court
erred by issuing judgments granting the attorney fees. …
[W]e are still barred from evaluating claims, such as this
one, where all of the allegedly improper relief was granted
by state courts.”).
Here as well, the Swartzes’ alleged injury was directly
caused by the state court’s orders: first to seize their animals,
and then to permanently place them with other owners and
force the Swartzes to reimburse Heartland for their care.
B. Reasonable Opportunity to Litigate
The Rooker-Feldman doctrine provides a safeguard
for plaintiffs. The Swartzes must have had a “reasonable opportunity” to litigate in state court the claims they are bringing in their federal case for the bar to apply. See Brokaw v.
Weaver, 305 F.3d 660, 668 (7th Cir. 2002). The Swartzes did
not argue the Rooker-Feldman issue substantively in their
briefing but did contest whether they were ever provided
reasonable opportunity to litigate the existence of probable
cause to seize their animals. Specifically, the Swartzes contend that: (1) the initial probable cause finding was ex parte;
(2) under an Indiana statute, they were entitled to a post-seizure adversary hearing on probable cause; and (3) they were
denied the opportunity to argue about the animals’ welfare
at any point. A review of the record shows that they had multiple opportunities to litigate whether the animals should
have been seized, and thus Rooker-Feldman applies.
The ex parte nature of the initial probable cause hearing does not prevent the application of Rooker-Feldman be11

cause the Swartzes had other opportunities to litigate the
issue. See O’Malley v. Litscher, 465 F.3d 799, 804 (7th Cir.
2006) (applying Rooker-Feldman where plaintiff had other
opportunities to challenge the decision and noting that “it
does not matter that the order was ex parte”).2
First, the Swartzes were provided an effective opportunity to litigate the probable cause issue by contesting the
state’s motion for authority to permanently place the livestock. The Swartzes were represented by counsel, took part
in two adversary hearings on the issue, and were able to
take relevant discovery before the court entered any order,
including the deposition of Lovejoy (whose allegedly false
and incorrect report formed the crux of the alleged conspiracy to seize the Swartzes’ animals). The court still found that
its original probable cause finding was correct and that the
animals should be placed elsewhere. The Swartzes could
have provided their own evidence of the falsity of the animal
welfare report, or evidence rebutting the state’s evidence of
animal neglect, but failed to do so.
Second, the Swartzes could have filed motions for reconsideration or to alert the court to new evidence, or used
any other method by which litigants in Indiana may place
arguments on the record. The Swartzes have not alleged any
meaningful restraint on their ability to litigate in the state
court.
2
The Swartzes argue that Indiana Code § 35-46-3-6 (the statute
addressing the seizure of animals) entitled them to a post-seizure adversarial hearing on probable cause. But read in context, the statute contemplates a post-deprivation probable cause hearing only if such a hearing
had not already occurred. Subsection (a) allows “[a]ny law enforcement
officer” who has probable cause to believe an animal is being neglected
to “take custody of the animal.” No judicial hearing is required. In this
case, Defendant Lee took a belt-and-suspenders approach by securing
a judicial probable cause finding before attempting the seizure. This is
why the state court judge denied the Swartzes’ motion for a post-seizure
probable cause hearing: the court had already determined that probable
cause existed. Rooker-Feldman applies because the Swartzes had reasonable later opportunities to litigate their claims, regardless of whether
they were afforded any specific statutory hearing under § 35-46-3-6.

12

Third, the Swartzes failed to appeal the state trial court’s orders in the state appellate court, which would
have constituted another reasonable opportunity to litigate
whether their animals should have been seized. See Gilbert v. Ill. State Bd. of Educ., 591 F.3d 896, 901–02 (7th Cir.
2010) (“[It] is enough to demonstrate that [plaintiff] did have
a ‘reasonable opportunity’ to pursue his due process claim
in Illinois state court” where plaintiff failed to pursue right
to appeal claim to Illinois Supreme Court). Indiana courts
have considered appeals from disgruntled litigants whose
animals were confiscated under Indiana Code § 35-46-3-6.
See, e.g., Wolff v. State, 87 N.E.3d 528, 532–34 (Ind. Ct. App.
2017); Miller v. State, 952 N.E.2d 292, 294–97 (Ind. Ct. App.
2011).
To be sure, there is a line of Seventh Circuit cases
preserving civil rights claims in the face of allegedly improper probable cause findings due to a lack of reasonable opportunity to litigate. But these cases involved plaintiffs who
lacked the Swartzes’ several chances to pursue their claims
in state court.
A leading case is Brokaw, in which the plaintiff claimed
that county officials had conspired to make false claims of
child neglect to justify removing her from her parent’s care.
305 F.3d at 662. There, this Court reversed and remanded
a lower court’s dismissal under Rooker-Feldman, arguing
that the plaintiff had no reasonable opportunity to pursue
her claims regarding purportedly false neglect reports at
the state level. In Brokaw, unlike this case, the state court
proceeded under Illinois’ Juvenile Court Act, which allowed
the court to “consider only the question whether the minor
is abused, neglected, delinquent, in need of supervision, or
dependent.” Id. at 668. Moreover, after the plaintiff had
been seized, the court ordered her to remain in foster care
during a hearing at which her parents were present, but not
represented by counsel, allowed to speak, call witnesses, or
cross-examine witnesses. Id. at 663. This is all contrary to
the Swartzes’ claims, as the Swartzes were represented by
counsel, attended hearings, were allowed to testify, and took
13

discovery.
In sum, this case should have been dismissed for lack
of jurisdiction under the Rooker-Feldman doctrine at its outset.3
III. Conclusion
For the foregoing reasons, we VACATE the judgment
of the district court and REMAND WITH INSTRUCTIONS
to dismiss the case for lack of subject matter jurisdiction.

The Swartzes’ pro se complaint contains Fourth and
Fourteenth Amendment claims under 42 U.S.C. § 1983. It
also states that “[f]urther, the folks at Heartland have posted several libelous statements against Plaintiff disparaging
their reputation … These statements were made in a malicious attempt to take and keep or distribute Plaintiffs livestock.” The district court determined that the Swartzes had
pleaded an Indiana state law libel claim and exercised supplemental jurisdiction over it; the libel action was dismissed
on the merits. But as there was no federal subject matter
jurisdiction over any claim, the district court never had jurisdiction over the libel claim. “When a district court does
not have subject-matter jurisdiction over federal claims, it
cannot exercise supplemental jurisdiction over any state
claims.” Mains, 852 F.3d at 679. The dismissal on the merits
of the libel action, like all other dispositions in the district
court, is vacated.
14
3

UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street - Chicago, Illinois 60604
Office of the Clerk - Phone: (312) 435-5850 - www.ca7.uscourts.gov

FINAL JUDGMENT
October 11, 2019
Before:

JOEL M. FLAUM, Circuit Judge
DIANE S. SYKES, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge

JAMIE SWARTZ, et al.,
Plaintiffs - Appellants
No. 18-3260

v.
HEARTLAND EQUINE RESCUE, et al.,
Defendants - Appellees

Originating Case Information:
District Court No: 4:16-cv-00095-TWP-DML
Southern District of Indiana, New Albany Division
District Judge Tanya Walton Pratt
We VACATE the judgment of the district court and REMAND WITH INSTRUCTIONS to dismiss the case for
lack of subject matter jurisdiction. The above is in accordance with the decision of this court entered on this date.
Each side shall bear their own costs.
form name: c7_FinalJudgment(form ID: 132)

15

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
NEW ALBANY DIVISION
JAMIE SWARTZ,
SANDRA SWARTZ,

)
)
)
Plaintiffs,
)
)
v.
)		
No. 4:16-cv-00095		
)			TWP-DML
		 )
RANDY LEE,
)
JODI LOVEJOY,
)
MEGHAN COMBS,
)
)
Defendants. )
ORDER
This matter is before the Court following the Mandate
(Dkt. 7205) issued by the United States Court of Appeals,
for the Seventh Circuit, which vacated the judgment of the
district court and remanded with instruction to dismiss the
case for lack of subject matter jurisdiction. Each side to bear
their own costs. Accordingly, the Court dismisses this matter
for lack of subject matter jurisdiction.
IT IS SO ORDERED.
Date: 11/6/2019
s/ Tanya Walton Pratt
				TANYA WALTON PRATT, JUDGE
				United States District Court		
				Southern District of Indiana

16

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
NEW ALBANY DIVISION
JAMIE SWARTZ,
SANDRA SWARTZ,

)
)
)
Plaintiffs,
)
)
v.
)		
No. 4:16-cv-00095		
)			TWP-DML
		 )
RANDY LEE,
)
JODI LOVEJOY,
)
MEGHAN COMBS,
)
)
Defendants. )
FINAL JUDGMENT
The Court, having this day, issued its order dismissing this matter for lack of subject matter jurisdiction, the
Court hereby enters JUDGMENT in favor of Defendants.
Plaintiff shall take nothing by way of their complaint.
SO ORDERED:
Dated: 11/6/2019 s/ Tanya Walton Pratt
				TANYA WALTON PRATT, JUDGE
				United States District Court		
				Southern District of Indiana

Laura Briggs, Clerk
United States District Court
By: Deputy Clerk
17

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
NEW ALBANY DIVISION
JAMIE SWARTZ,
SANDRA SWARTZ,

)
)
)
Plaintiffs,
)
)
v.
)		
No. 4:16-cv-00095		
)			TWP-DML
		 )
HEARTLAND EQUINE
)
RESCUE, UPLANDS PEAK )
SACNTUARY, RANDY LEE, )
JODI LOVEJOY,
)
MICHELLE PRUITT,
)
JO CLAIRE CORCORAN,
)
DEBBIE MOORE, KELLY JO )
FITHIAN-WICKER, MARNIE)
BENNETT, and MEGHAN
)
COMBS,
)
)
Defendants. )
AMENDED ORDER ON DEFENDANTS’ MOTIONS
TO DISMISS PLAINTIFF’S SECOND AMENDED
COMPLAINT AND MOTION FOR JUDGMENT ON
THE PLEADINGS
This matter is before the Court on several pending motions. Defendants Heartland Equine Rescue (“Heartland”),
Jo-Claire Corcoran (“Corcoran”), Debbie Moore (“Moore”),
and Kelly Jo Fithian-Wicker (“Fithian-Wicker”) (collectively,
the “Heartland Defendants”) and Defendants Uplands Peak
Sanctuary (“Uplands”) and Michelle Pruitt (“Pruitt”) (collectively, “Uplands Defendants”) each filed Motions to Dismiss.
Respectively, (Filing No. 77) and (Filing No. 79). Defendant
Marnie Bennett (“Bennett”) has filed a Motion for Judgment
18

on the Pleadings. (Filing No. 82). The disputes in this action
surround allegations by pro se Plaintiffs Jamie Swartz and
Sandra Swartz (collectively “the Swartzes”), that the Defendants violated their Fourth and Fourteenth Amendment
rights under 42 U.S.C. § 1983 (“Section 1983”). Specifically,
the Swartzes allege that the Defendants conspired and made
false report in order to seize the Swartzes’ livestock. In their
Second Amended Complaint, the Swartzes also allege claims
of libel against the Heartland Defendants and Pruitt (Filing
No. 96)1. For the reasons that follow, the Court GRANTS
Heartland Defendants’ and Uplands Defendants’ Motions to
Dismiss, and GRANTS Bennett’s Motion for Judgment on
the Pleadings.
I.

BACKGROUND

The following facts are not necessarily objectively
true. But as required when reviewing a motion to dismiss,
the Court accepts as true all factual allegations in the operative Second Amended Complaint and exhibits attached
thereto, and draws all reasonable inferences in favor of the
Swartzes as the non-moving party. See Bielanski v. County
of Kane, 550 F.3d 632, 633 (7th Cir. 2008).
Heartland is an organization located in Clark Couty,
Indiana, that rescues horses believed to be neglected
which includes working with law enforcement on neglect
1

The Heartland and Uplands Defendants’ Motions to Dismiss
and Ms. Bennett’s Motion for Judgment on the Pleadings, were all filed
in response to the Swartzes’ Amended Complaint (Filing No. 70). Thereafter, the Swartzes filed a Motion for Leave to file a Second Amended
Complaint (Filing No. 85). On January 27, 2017, over objection of Ms.
Bennett, the Court granted leave to file the Second Amended Complaint
(Filing No. 95). The Court explained that briefing on the motions to dismiss would not have to start over, rather “it is simpler and more fair to
the defendants in this pro se case to permit amendment but not require
briefing on motions to dismiss to start from scratch.” (Filing No. 95 at
2.) The Court set firm deadlines for the Swartzes to file responses to
the motions and the Defendants were instructed that their reply briefs
should take into account the allegations of the Second Amended Complaint, which is the operative complaint (Filing No. 96).

19

situations. Uplands is also an animal rescue organization,
located in Washington County, Indiana, that takes in rescued animals. Defendant Randy Lee (“Lee”) is the Washington County Animal Control Officer and Defendant Meghan
Combs (“Combs”) is the Washington County Sheriff Dispatcher.
On June 14, 2014, Lee, Combs, Heartland, and Uplands seized the Swartzes’ livestock pursuant to a June 13,
2014 court order. (Filing No. 96 at 5.) The Swartzes allege
that the probable cause for the court order was based on
false and misleading information. Id. The following summarizes the alleged events leading up to the seizure.
Several months prior to the June 14, 2014 seizure,
the Swartzes contacted their local veterinarian because
they felt their horses were not thriving as they should have.
The Swartzes followed the recommendation of their local
vet. (Filing No 96 at 5). Also prior to June 14, 2014, Bennett trespassed on the Swartzes’ property to inspect the
feed stocks for the Swartzes’ horses and goats. Bennett was
a close friend and confidant of a Heartland employee, Debbie Moore (“Moore”), and Bennett encouraged Heartland
and Lee to seize the livestock and distribute the livestock to
Heartland and Uplands. Corcoran and Fithian-Wicker were
also employed by Heartland during the relevant time period,
and Moore, Corcoran, and Fithian-Wicker all were integral
actors in Heartland’s rescue endeavors by encouraging Lee
and State Veterinarian Dr. Jodi Lovejoy (“Dr. Lovejoy”) to
confiscate the animals (Filing No. 96 at 4). After seizing their
livestock, several Heartland employees began posting libelous statements on Facebook regarding the incident, which
inferred criminal activity on the part of the Swartzes. Id. at
6. These statements disparaged the Swartzes reputation.
Attached to the Second Amended Complaint are
screenshots of the libelous statements (Filing No. 96-1). Additionally, attached is an exhibit of an online petition and
chat, posted shortly after the Swartzes’ animals were seized,
which seeks harsh criminal penalties and depicts a severely
20

malnourished horse. (Filing No. 96 at 6, Filing No. 96-2.)
The online picture is not their horse, and the posting was
Pruitt’s malicious attempt to have them fined and put in jail.
Id.
Lee visited the Swartz residence on multiple occasions by himself and with Dr. Lovejoy, who evaluated the
animals and provided recommendations. (Filing No. 96 at
5.) Dr. Lovejoy evaluated the horses according to the “Henneke2” body condition scale to determine neglect. Dr. Lovejoy
also evaluated the goats’ body conditions, which according
to the Swartzes was incorrectly based on a scale for sheep,
which have different body types. Id. The Swartzes followed
all of Dr. Lovejoy’s recommendations and their livestock had
ample feed, water, and shelter. Id. The Swartzes had not neglected their livestock as reported in the criminal charges
that were filed against them following the seizure. Id.
The Second Amended Complaint alleges that “Uplands Peak knew that the State actors would act and agreed
with the co-conspirators at Heartland for Animal Control
and the State Vet to seize the Swartz livestock as the goats
went to Uplands Peak.” Dr. Lovejoy visited the Swartzes’ residence for the last time on June 4, 2014, and she falsely reported that the animals were in immediate jeopardy. (Filing
No. 96 at 5.) Probable cause to seize the animals was found
pursuant to a court order on June 13, 2014, and the animals
were seized the next day. Id. Heartland made a posting to its
organizational Facebook page recounting the details of the
June 14, 2014 seizure including the animals’ living conditions. (Filing No. 96-9.)
II. LEGAL STANDARD
2
The Henneke horse body condition scoring system is a numerical scale used to evaluate the amount of fat on a horse’s body. Scores
range from one to nine with one being very poor and nine being extremely fat; the ideal range for most horses is from four to six. WIKIPEDIA
https://en.m.wikipedia.org/wiki/Henneke_horse_body_ condition_scoring_ system (last visited September 13, 2017).

21

A.

Rule 12(b)(6)

Federal Rule of Civil Procedure 12(b)(6) allows a defendant to move to dismiss a complaint that has failed to
“state a claim upon which relief can be granted.” Fed. R. Civ.
P. 12(b)(6). When deciding a motion to dismiss under Rule
12(b)(6), the court accepts as true all factual allegations in
the complaint and draws all reasonable inferences in favor
of the plaintiff. Bielanski v. County of Kane, 550 F.3d at 633
(7th Cir. 2008). However, courts “are not obliged to accept as
true legal conclusions or unsupported conclusions of fact.”
Hickey v. O’Bannon, 287 F.3d 656, 658 (7th Cir. 2002).
The complaint must contain a “short and plain statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). In Bell Atlantic Corp. v. Twombly,
the Supreme Court explained that the complaint must allege facts that are “enough to raise a right to relief above
the speculative level.” 550 U.S. 544, 555 (2007). Although
“detailed factual allegations” are not required, mere “labels,”
“conclusions,” or “formulaic recitation[s] of the elements of
a cause of action” are insufficient. Id.; see also Bissessur v.
Ind. Univ. Bd. of Trs., 581 F.3d 599, 603 (7th Cir. 2009) (“it
is not enough to give a threadbare recitation of the elements
of a claim without factual support”). The allegations must
“give the defendant fair notice of what the . . . claim is and
the grounds upon which it rests.” Twombly, 550 U.S. at 555.
Stated differently, the complaint must include “enough facts
to state a claim to relief that is plausible on its face.” Hecker
v. Deere & Co., 556 F.3d 575, 580 (7th Cir. 2009) (citation and
quotation omitted). To be facially plausible, the complaint
must allow “the court to draw the reasonable inference that
the defendant is liable for the misconduct alleged.” Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009) (citing Twombly, 550 U.S.
at 556).
B.

Rule 12(c)

Federal Rule of Civil Procedure 12(c) permits a party
to move for judgment on the pleadings after the parties have
22

filed the complaint and answer. Rule 12(c) motions are reviewed under the same standard as a motion to dismiss under 12(b)(6). Frey v. Bank One, 91 F.3d 45, 46 (7th Cir. 1996).
Like a Rule 12(b)(6) motion, the court will grant a Rule 12(c)
motion only if “it appears beyond doubt that the plaintiff cannot prove any facts that would support his claim for relief.”
N. Ind. Gun & Outdoor Shows, Inc. v. City of S. Bend, 163
F.3d 449, 452 (7th Cir. 1998) (quoting Craigs, Inc. v. General
Elec. Capital Corp., 12 F.3d 686, 688 (7th Cir. 1993)). The
facts in the complaint are viewed in a light most favorable to
the non-moving party; however, the court is “not obliged to
ignore any facts set forth in the complaint that undermine
the plaintiff ’s claim or to assign any weight to unsupported
conclusions of law.” Id. (quoting R.J.R. Serv., Inc. v. Aetna
Cas. & Sur. Co., 895 F.2d 279, 281 (7th Cir. 1989)). “As the
title of the rule implies, Rule 12(c) permits a judgment based
on the pleadings alone. . . . The pleadings include the complaint, the answer, and any written instruments attached as
exhibits.” Id. (internal citations omitted).
III. DISCUSSION
As an initial matter, the Court notes that the Swartzes have attached several exhibits to their Second Amended
Complaint. Because they are attached to the Complaint, the
Court may consider the attachments in deciding the motions
to dismiss without having to convert the motion to one for
summary judgment. See Tierney v. Vahle, 304 F. 3d 734, 738.
(7th Cir. 2002). Documents attached to a motion to dismiss
are considered part of the pleadings if they are referred to in
the plaintiff ’s complaint and are central to his claim. Wright
v. Associated Ins. Companies Inc., 23 F.3d 1244 (7th Cir.
1994). Such documents may be considered by a district court
in ruling on the motion to dismiss. Id.
The Heartland Defendants and Uplands Defendants
filed individual Motions to Dismiss the Swartzes’ Amended
Complaint and Bennett filed a Motion for Judgment on the
Pleadings. For purposes of this discussion, the Heartland
and Uplands Defendants’ arguments raised in response to
23

the Amended Complaint are considered jointly. The Court
will first address the Heartland Defendants’ and Uplands
Defendants’ Motions to Dismiss and then turn to Bennett’s
Motion for Judgment on the Pleadings.
A.

Heartland and Uplands Defendants’ Motions to
Dismiss

The Heartland Defendants and Uplands Defendants
set forth three reasons for dismissing the Second Amended Complaint. First, they allege the Swartzes failed to raise
factual allegations against them that explain how they conspired with state officials to seize their livestock. Second,
they argue that the alleged statements are not defamatory.
Finally, they argue that the state law claim for libel should
be dismissed for lack of subject matter jurisdiction should
the Court grant dismissal based on the Court’s original jurisdiction.
1. Section 1983 Claims
“Relief under section 1983 is available to a plaintiff
who can demonstrate that a person acting under color of
state law deprived the plaintiff of a right, privilege, or immunity secured either by the Constitution or by federal law.”
Vasquez v. Hernandez, 60 F.3d 325, 328 (7th Cir. 1995).
Private persons jointly, engaged with state officials in the prohibited action, are acting ‘under
color’ of law for purposes of the statute. To act
‘under color’ of law does not require that the
accused be an officer of the State. It is enough
that he is a willful participant in joint activity
with the State or its agents.
Vickery v. Jones, 100 F.3d 1334, 1344 (7th Cir. 1996) (quoting Adickes v. S.H. Kress & Co., 398 U.S. 144, 158, 90 S.Ct.
1598, 26 L.Ed.2d 142 (1970)).
The Swartzes allege that their “livestock was seized
24

by Randy Lee, under direction from Dr. Lovejoy and under encouragement from members of Heartland and Upland Peaks”, depriving them of property in contravention of
their constitutional rights under the Fourth and Fourteenth
Amendments (Filing No. 96 at 45). The Second Amended
Complaint states “[p]resent and assisting with the seizure
of the livestock were, Randy Lee, Meghan Combs, Jo-Claire
Corcoran, Kelly Jo-Fithian Wicker, Debbie Moore and people
from three television stations.” (Filing No. 96 at 6.) The Second Amended Complaint makes several repeated references
specifically as to these Defendants in particular and Bennett regarding their encouragement as “integral actors in
Heartland Equine Rescue’s endeavors and acted under color
of law by assisting authorities with the illegal seizure of the
livestock and conspiring with and agreeing to the seizure.”
Id. at 4. The Heartland Defendants respond that the Second
Amended Complaint does not allege how they participated
in the confiscation of the livestock, or if they were active participants in the seizure, or merely received the livestock after the seizure. (Filing No. 78 at 5). The Uplands Defendants
respond that the Swartzes’ Section 1983 argument, including their allegation of Uplands “encouragement”, is based on
its mission: “being a not for profit corporation animal rescue
organization that takes in rescued animals” (Filing No. 80 at
6). Further, both the Uplands Defendants and the Heartland
Defendants argue the Swartzes do not provide factual allegations to support a conspiracy claim or that they reached
an understanding with state officials to deprive the Swartzes of their constitutional rights.
In response to the both Defendants’, the Swartzes
quote from the Second Amended Complaint and argue that
their recitations are not merely labels or conclusions, but are
well pled facts that are sufficient to raise a right to relief.
(Filing No. 103 at 1-2.) The Swartzes also take issue with
Seventh Circuit decisions and the legal analysis presented
by Uplands and Pruitt and argue that the “definition of acting ‘under color of law’ is controlled by the United States
Supreme Court and not by any added requirement by any
other tribunal.” (Filing No. 104 at 2). This Court, however,
25

is bound by precedent of both the United States Supreme
Court and the Seventh Circuit Court of Appeals. Nevertheless, the Wilson v. Warren Cty. Illinois, 2016 WL 3878215, at
*2 (7th Cir. July 18, 2016) case that Uplands (same question)
has cited in its brief quotes directly from the United States
Supreme Court case Adickes that the Swartzes have also cited (Filing No. 80 at 4).
The Swartzes also allege that Combs, in her role as
Washington County Sheriff Dispatcher, contacted Heartland
who then contacted Uplands and in concert they emailed Dr.
Lovejoy to tell her that they had someone to take the goats
one week before the seizure. (Filing No. 104 at 2).
“Mere allegations of joint action or a conspiracy do not
demonstrate that the defendants acted under color of state
law and are not sufficient to survive a motion to dismiss.”
Fries v. Helsper, 146 F.3d 452, 458 (7th Cir. 1998). For actions under color of law, there must be some understanding
or “meeting of the minds” between the private actor and state
actor to deny plaintiffs a constitutional right. See Adickes,
398 U.S. at 158. This requires the plaintiff to demonstrate
the existence of a joint action, concerted effort, or general
understanding among the defendants. See id. Here, at most,
the Second Amended Complaint alleges that the Heartland
Defendants and Uplands Defendants committed conspiracy
by encouraging the seizure of livestock by state officials, but
there is no information regarding factual allegations supporting the Defendants’ encouragement. Specifically, the
Second Amended Complaint presents an allegation concerning an email from Heartland employee, Moore, to the State
vet. The allegation states:
[T]hey have ‘someone to take goats’ on June
6th, 2014, so Uplands Peak had already agreed
with Heartland (thus encouraging Heartland)
to take the goats and this was a week before
the seizures. Therefore, Uplands Peak knew
that the State Actors would act and agreed
with co-conspirators at Heartland for Animal
26

Control and the state vet to seize the Swartz
livestock as the goats went to Uplands Peak.
(Filing No. 96 at 5). This email alone does not show an understanding between Heartland, Uplands, and state officials
to deprive the Swartzes of constitutional rights; rather, it
is a conclusory allegation of conspiracy based on the Defendants carrying out their organizational missions of rescuing
suspected neglected animals. A governmental seizure must
be unreasonable to constitute a Fourth Amendment violation. Belcher v. Norton, 497 F.3d 742, 748 (7th Cir. 2007).
Even accepting as true that Bennett, Heartland, and
Uplands alerted state authorities (who later investigated
and monitored the case) of a suspected animal neglect situation, and that Dr. Lovejoy’s recommendations evaluated
the neglect of the animals on incorrect scales, the Swartzes’
claim does not succeed. The Second Amended Complaint fails
to show these individual actions were agreements among
the Defendants to participate in joint activity to deprive the
Swartzes of their constitutional rights in effecting a seizure
based on the information available at the time. The mere
fact that Uplands and Heartland were each involved with
the mechanics and planning of housing the rescued animals
after the seizure, fails to show how they were involved in a
larger conspiracy with the state to violate the Swartzes’ constitutional rights.
Although the Swartzes allege that the probable cause
for the seizure of their animals was based on false information, they fail to provide factual allegations as to how the
Heartland Defendants and Uplands Defendants were involved in pursuing the court order for seizure other than being present and assisting with the seizure case. Further, the
Second Amended Complaint does not allege that Heartland
and Uplands employees did not have a good faith basis to
rely on the seizure warrant. While “detailed factual allegations” are not required to overcome a Rule 12(b)(6) motion,
mere “labels,” “conclusions,” or “formulaic recitation[s] of the
elements of a cause of action” are insufficient. Twombly, 550
27

U.S. at 555. The Swartzes’ allegations against the Heartland
Defendants and Uplands Defendants amount only to legal
conclusions of conspiracy under the vague guise of “encouragement” supported only by facts of Heartland and Uplands
carrying out their duties in their organizational missions
of rescuing suspected neglected animals. Accordingly, the
Swartzes have not set forth a viable claim against the Heartland Defendants or Uplands Defendants under Section 1983,
and their Motions to Dismiss this are granted.
2.

Indiana Libel Law

The Heartland Defendants and Uplands Defendants
both move to dismiss the Swartzes’ state law libel claim, asserting lack of specificity as a defense. In support of their
defamation claim, the Second Amended Complaint contains
screenshots of Facebook posts and comments between Lee
and the Heartland Defendants (Filing No. 96-4) and exhibits the online petition in question that the Swartzes allege
was posted by Pruitt depicting a stock photo of a severely
malnourished horse that did not belong to them. (Filing No.
96-1.)
To maintain an action for defamation, a plaintiff must
prove four elements: “(1) a communication with a defamatory imputation; (2) malice; (3) publication; and (4) damages.” Kelley v. Tanoos, 865 N.E.2d 593, 596-97 (Ind. 2007). A
communication is defamatory per se if it imputes: “(1) criminal conduct; (2) a loathsome disease; (3) misconduct in a
person’s trade, profession, office, or occupation; or (4) sexual
misconduct.” Id. at 596. The defamatory nature of a communication must appear without resort to extrinsic facts or
circumstances. Branham v. Celadon Trucking Servs., Inc.,
744 N.E.2d 514, 522 (Ind. Ct. App. 2001).
The Second Amended Complaint alleges that Pruitt
“posted a picture of a horse that didn’t belong to Plaintiffs
in association with the criminal case which was eventually
dismissed and committed libel.” (Filing No. 96 at 6.) However the Swartzes’ exhibit reveals that the posting was made
28

by someone named Laurie Fanelli (“Fanelli”) (Filing No. 961). Pruitt argues that the only way this particular posting
can be determined to be defamatory in nature is by referring
to extrinsic evidence as nothing on the face of the posting
is attributable to Pruitt or the Swartzes. In addition, the
posting was made by Fanelli, Pruitt’s name does not appear
anywhere on the posting and the Swartzes have not alleged
that Pruitt is somehow connected to Fanelli. Id. The Court
notes that another party, Mark D. Pruitt, whom the Swartzes have not alleged a connection to Pruitt, commented on the
posting saying, “This case is likely to go to trial. The couple
will accept no plea deal, they say the[y] have done nothing
wrong and want their animals back. . .” (Filing No. 96-3).
Even assuming that Mark D. Pruitt is connected to Pruitt,
his comments cannot be attributed to Pruitt. Therefore, the
Swartzes have pled insufficient facts to support a libel claim
against Pruitt.
With respect to the Heartland Defendants, the Swartzes argue their statements were defamatory per se as they
referenced the Swartzes’ alleged criminal conduct of animal
neglect. However, a plaintiff must still show defamatory imputation, malice, and publication. Nevertheless, truth is a
complete defense to defamation. Gatto v. St. Richard School,
Inc., 774 N.E.2d 914, 924 (Ind. Ct. App. 2002). Further, under Indiana law, defamatory statements may be protected by
a qualified privilege of common interest. Id. “The qualified
privilege applies to communications made in good faith on
any subject matter in which the party making the communication has an interest or in reference to which he has a duty,
either public or private, either legal, moral, or social, if made
to a person having a corresponding interest or duty.” Id. at
924-25.
The Swartzes’ defamation claim is based on a series of
Facebook posts made by the Heartland Defendants in reference to the seizure, rescue, and the Swartzes’ criminal case.
(Filing No. 96.) The Swartzes allege that “[t]hese statements
were made in a malicious attempt to take and keep or distribute Plaintiffs [sic] livestock” (Filing No. 96 at 6). Many of
29

Heartland’s statements recounted the factual details of the
actual seizure and Heartland’s rescue in concert with State
actors and three news stations, which captured footage and
pictures of the rescue, including the physical conditions and
living conditions of the livestock just before Heartland’s rescue. (Filing No. 96-9 at 1.) Another statement makes reference to the passing of a horse, “Maude”, and within that
statement Heartland mentions the “Washington County
seizure” and imputes the Swartzes’ neglect of Maude. (Filing No. 96-7 at 1.) On January 15, 2015, Heartland made
a Facebook posting recounting the details of the seizure
hearing and Heartland’s testimony at the hearing. (Filing
No. 96-8 at 1.) Lee responded on the post to “keep them pics
for court they look amazing” and “you all did a wonderful
job with them and [I] thank you. . . trying my best to make
sure charges stick [I] will be talking to them tomorrow.” Id.
Heartland responded to the post, “I wonder if the Swartz
have ever looked at the page and seen what their poor skinny horses look like now that they have actually been fed.” Id.
Lee responded, “remember people these people was given 4
chances to fix the problem and they didn’t”. There are comments on another post, which appear to be in reference to a
picture of a rescued horse, although the horse is not pictured
in the exhibit, where another poster commented on how the
horse looks great now. (Filing No. 96-10 at 1.) Heartland responded, “Yes Robin it’s amazing what a difference food will
make, too bad the owners didn’t understand that concept.”
Id.
The Swartzes contend that these defamatory statements were false. Some of Heartland’s comments contain
inappropriate opinions and suggestions including relaying
their opinions, in a public forum, on how an ongoing case
will turn out. Nevertheless, Heartland argues that Heartland made many of the comments with grounds for belief
in its truth and the Swartzes have not alleged that these
statements were made with malice. (Filing No. 107 at 3-4.)
Accepting the Swartzes’ allegations, that some of the statements were false and that truth is not a complete defense,
the qualified privilege applies here to protect the defamatory
30

statements. Thus, the defamation claim fails as a matter of
law.
The qualified privilege arises out of the necessity for
full and unrestricted communication on matters that parties
have a common interest or duty. Gatto, 774 N.E.2d at 925.
“In the absence of a factual dispute, the applicability of the
privilege is a question of law to be determined by a court.”
Kelley, 865 N.E.2d at 597. In Gatto, the Indiana Court of
Appeals held that schools and parents have a corresponding
interest to the free flow of information, and that the school’s
defamatory statement was protected under a qualified privilege when the school communicated the termination of a
teacher’s employment to parents. Id. at 925-26. Here, Lee
and the Heartland Defendants had a common interest in
the seizure and rescue of the livestock in investigating and
following through on their professional duties with regards
to the Swartzes’ criminal and seizure case. Therefore, their
Facebook comments fall squarely under the protection of a
qualified privilege. The Heartland Defendants’ general posts
and comments to other Facebook posters are protected by
the truth and/or qualified privilege defenses. Combs, who
was also a state actor involved in the seizure with a qualified
privilege, commented “so happy they are getting a chance at
the life they are supposed to have. Can’t wait to visit and see
the improvements it has been a long year trying to get something done for these guys.” (Filing No. 96-9 at 1.) Because
Heartland is a rescue agency, its comments to its own Facebook page – which is followed by people also having a legal,
social, or moral interest in rescuing horses believed to be neglected – the qualified privilege protects these statements of
common interest. Because the statements are protected, the
Swartzes’ libel claim fails. Accordingly, the Swartzes cannot
set forth a viable claim against the Heartland Defendants
or Uplands Defendants for defamation and their Motions to
Dismiss is granted.
3.
Lack of Subject Matter over Supplemen		
		tal State Law Claim
31

The Swartzes argue that the supplemental claim
should not be dismissed because the Section 1983 claims
should not be dismissed. Because the Court has determined
that dismissals of all claims against the Heartland Defendants and the Uplands Defendants are warranted, the Court
denies Heartland Defendants and Uplands Defendants’
Motions to Dismiss the supplemental state law claims in the
alternative as moot, since the Court has exercised supplemental jurisdiction over the state law claims.
B.

Bennett’s Motion for Judgment on the
Plead ings

Bennett’s Motion for Judgment on the Pleadings (Filing No. 82) sets forth two reasons for dismissing the Second
Amended Complaint. First, she alleges that the Swartzes
failed to raise factual allegations against her to show that
she was acting under color of state law. Second, she argues
that the Swartzes’ constitutional rights were not violated
and that they have not pled sufficient facts to prove a violation.
1.

Section 1983 Claim

The specific Section 1983 factual allegation against
Bennett is that she trespassed on the Swartzes’ property to
inspect the feed stocks for the Swartzes’ horses “and being
a close friend and confidant of Debbie Moore, encouraged
Meghan Combs, Debbie Moore, and Randy Lee, the Washington County Animal Control Officer to seize the Plaintiff ’s
[sic] livestock” (Filing No. 96 at 4). Bennett argues that the
Swartzes have not pled sufficient facts to show that she was
acting under color of state law. The Swartzes respond that
Bennett “acted under color of law by ‘searching’ their feed
stocks at the behest of Combs and Lee and she acted in concert with the State Actors and Heartland to effect a seizure
of Plaintiffs’ livestock” (Filing No. 105 at 2).
Similar to the allegations against Heartland and Uplands, the Swartzes allege that Bennett, in concert with all
32

of the Defendants, encouraged the state actors to seize their
livestock and that her trespass was part of the larger conspiracy. Id. Accepting as true, that Bennett did trespass and
check on the feed stocks of the animals, the remainder of the
allegations against Bennett amount to legal conclusions and
are not entitled to a presumption of truth. “Mere conjecture
that there has been a conspiracy is not enough to state a
claim. A private person does not conspire with a state official
merely by invoking an exercise of the state official’s authority.” Tarkowski v. Robert Bartlett Realty Co., 644 F.2d 1204,
1208 (7th Cir. 1980). It is not sufficient to allege that the
private party and the state merely acted in concert or with
a common goal, rather there must be factual allegations to
suggest a “meeting of the minds” in depriving the plaintiff
of constitutional rights. See id. at 1206. (affirming district
court’s dismissal of complaint that suggested that whatever
purpose the State’s Attorney may have had in discriminatorily enforcing zoning ordinances would have been shared
with, and prompted and encouraged, by the private defendants).
Bennett’s Motion for Judgment on the Pleadings is
evaluated under the same legal standards as Heartland
Defendants’ and Upland Defendants’ Motions to Dismiss.
As discussed at length above, for a Section 1983 conspiracy claim, the Swartzes must allege factual allegations that
plausibly show a “meeting of the minds” or understanding
between Bennett and the state actors to deprive them of constitutional rights. Here, whatever Bennett’s motives were for
trespassing onto the Swartzes’ property, the Swartzes have
not alleged factual allegations detailing how Bennett had an
understanding with the state actors to seize the livestock.
The Swartzes support their conspiracy allegation with a legal conclusion that Bennett was motivated by the encouragement of Moore, Combs, and Lee. At most, Bennett’s trespass
and private investigation of the feed stocks, subsequently
led to authorities conducting their own investigation into
the animals’ living conditions, but this is not sufficient to
show Bennett and the state actors were in concert. Because
the Swartzes have not pled sufficient facts to take Bennett’s
33

alleged private trespass from a private action to a joint action with the State to deprive them of their constitutional
rights, Bennett’s Motion for Judgment on the Pleadings on
this issue is granted.
2.
The Swartzes’ Constitutional Rights 		
		were not Violated
Bennett argues that the Swartzes’ constitutional
rights were not violated because although the Swartzes were
deprived of their property, they were afforded due process of
law (Filing No. 83 at 6). The Swartzes allege that Bennett, at
the behest of Combs and Lee, acting under color of state law,
violated the Fourth and Fourteenth Amendment when she
searched their animals’ feedstocks (Filing No. 105 at 2). Bennett responds that the Swartzes’ constitutional rights were
not violated because the animals were seized pursuant to a
lawful court order (Filing No. 83-1) based on probable cause
and the Swartzes had post-deprivation remedies available.
(Filing No. 83 at 6-7.)
The Fourth Amendment only regulates government
activity that constitutes a “search” or “seizure”. Caldwell
v. Jones, 513 F.Supp.2d 1000, 1006 (N.D. Ind. 2007). The
Swartzes have not pled sufficient facts to prove that Bennett’s private trespass and “search” was in concert with
state actors to deprive them of their livestock, therefore
their Fourth Amendment claim based on this conduct cannot
survive. Further, even if Bennett was acting under the color
of state law, this would still not constitute a violation under
the Fourth Amendment. “Nor is the government’s intrusion
upon an open field a ‘search’ in the constitutional sense because that intrusion is a trespass at common law.” Oliver v.
U.S., 466 U.S. 170, 183-84 (1970).
Similarly, Bennett did not violate the Swartzes’ Fourteenth Amendment rights as the Second Amended Complaint
does not contain factual allegations that she was involved
in the actual seizure of the livestock. The conclusion that
Bennett “encouraged” the state actors to seize the livestock
34

is not sufficient, nor is it entitled to a presumption of truth.
More than “mere conclusory” statements and “threadbare
recitals” of the elements of an offence must be identified and
are not entitled to an assumption of truth. Iqbal, 556 U.S at
678.
The Swartzes also allege that the probable cause affidavit was based on false information, commencing with Bennett’s inspection of the feedstocks. Accepting as true, that
the probable cause affidavit contained false information, the
Swartzes were afforded due process both before and after
the seizure. “[W]hen deprivations of property are effected
through random and unauthorized actions of state employees and the state provides an adequate postdeprivation remedy, the requirements of due process are satisfied and the
plaintiff may not maintain a § 1983 suit in federal court.”
Wilson v. Civil Town of Clayton, Ind., 839, F.2d 375, 383 (7th
Cir. 1988). The pleadings reveal that Washington County
Ordinance 90.99 (C) provided the Swartzes a post-deprivation remedy for an alleged improper seizure of their animals.
(Filing No. 83-2 at 5.) This Ordinance provides an option for
remedying an alleged improper seizure of their animals. Because the Swartzes have not pled sufficient facts to show
that Bennett acted in concert with state actors in effecting a
seizure and the Swartzes were provided a post-deprivation
remedy, the seizure of the animals did not constitute a Fourteenth Amendment violation.
The Swartzes have failed to plead factual allegations
supporting their claim that Bennett acted under color of
state law. Additionally, the Swartzes have not pled sufficient
allegations to show that their constitutional rights were violated by the trespass or resulting seizure. Therefore, Bennett’s Motion for Judgment on the Pleadings regarding this
issue is granted.
C.

Dismissal with prejudice

The Court concludes that dismissal of the Swartzes
claims should be with prejudice. Fed. R. Civ. P. 15 directs
35

that courts should “freely” grant leave to amend a pleading
“when justice so requires”. Fed. R. Civ. P. 15(a)(2). Nevertheless, courts are instructed to deny leave to amend “[w]
here the problems with a claim are substantive rather than
the result of an inadequately or inartfully pleaded complaint
[and] an opportunity to replead would be futile”. In re Sanofi Secs. Litig., 87 F. Supp. 3d 510, 548-49 (S.D.N.Y. 2015);
Airborne Beepers & Video, Inc. v. A T & T Mobility LLC, 499
F.3d 663, 666 (7th Cir. 2007). Because they are proceeding
pro se, the Court previously granted the Swartzes leave to
file a Second Amended Complaint. See Filing No. 95. The
Amended Complaint and Second Amended Complaint provided the Swartzes an opportunity to cure substantive problems with their claims. The Court concludes that dismissal
with prejudice is appropriate to the Heartland Defendants,
the Upland Defendants and Bennett, because it would be
futile to allow the Swartzes to file a fourth complaint against
them.
IV. CONCLUSION
For the reasons herein, the Heartland Defendants’
and Uplands Defendants’ Motions to Dismiss (Filing No. 77;
Filing No. 79) are GRANTED and these claims are DISMISSED with prejudice. Additionally, Bennett’s Motion
for Judgment on the Pleadings (Filing No. 82) is GRANTED, and these claims are DISMISSED with prejudice. The
claims against Dr. Jodi Lovejoy, Randy Lee, Meghan Combs
remain pending.
SO ORDERED.
Date: 9/26/2017		
s/ Tanya Walton Pratt
				TANYA WALTON PRATT, JUDGE
				United States District Court		
				Southern District of Indiana

36

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
NEW ALBANY DIVISION
JAMIE SWARTZ,
SANDRA SWARTZ,

)
)
)
Plaintiffs,
)
)
v.
) Case No. 4:16-cv-00095		
)			TWP-DML
		 )
RANDY LEE,
)
JODI LOVEJOY,
)
MEGHAN COMBS,
)
)
Defendants. )
ENTRY ON DEFENDANTS’ MOTIONS FOR
SUMMARY JUDGMENT AND MOTION TO STRIKE
PLAINTIFFS’ SURREPLY
This matter is before the Court on Defendants Randy Lee’s (“Lee”) and Meghan Combs’ (“Combs”) (collectively,
“Sheriff Defendants”) Motion for Summary Judgment (Filing No. 162), and Defendant Jodi Lovejoy’s (“Dr. Lovejoy”)
Motion for Summary Judgment, (Filing No. 166). The disputes in this action surround allegations by pro se Plaintiffs Jamie Swartz and Sandra Swartz (collectively, “the
Swartzes”), that the Defendants violated their Fourth and
Fourteenth Amendment rights under 42 U.S.C. § 1983 (“§
1983”). Specifically, the Swartzes allege the Defendants conspired and made false reports in order to seize the Swartzes’
livestock on less than probable cause. Also before the Court
is Dr. Lovejoy’s Motion to Strike Plaintiffs’ Surreply (Filing
No. 188). For the reasons that follow, the Court grants the
Sheriff Defendants’ and Dr. Lovejoy’s Motions for Summary
Judgment, and denies the Motion to Strike.
37

I. BACKGROUND
This statement of facts is not necessarily objectively
true, but as the summary judgment standard requires, the
undisputed facts and the disputed evidence are presented in
the light reasonably most favorable to the Swartzes as the
non-moving party. See Reeves v. Sanderson Plumbing Products, Inc., 530 U.S. 133, 150 (2000).
The Swartzes reside in Washington County, Indiana,
on 24 acres of land, with 4 acres of flat, clear pasture where
their animals could roam. There is a 60 foot round pen on
the four-acre pasture. In April 2011, the Swartzes purchased
a horse, Goliath. (Filing No. 163-1 at 16.) In 2012, they were
given a donkey named Radar. When they acquired Radar,
his front hooves were severely overgrown. In April 2013, Mr.
Swartz purchased five more horses. From 2011 to 2013, the
Swartzes acquired six goats.
Lee is the Animal Control Officer with the Washington County Sheriff Department and Combs is the Records
Clerk for the Washington County Sheriff Department. In
the Spring of 2012, Lee first visited the Swartzes’ property
inquiring about Goliath and Radar’s overgrown hooves. Dr.
Lovejoy, Doctor of Veterinarian Medicine, is a field veterinarian for the Indiana Board of Animal Health (“BOAH”).
In April 2013, Lee contacted Dr. Lovejoy concerning a thin
horse he had observed on the Swartzes’ property and requested Dr. Lovejoy’s assistance in evaluating the horse and
its circumstances. (Filing No. 168-1 at 1-2.)
On May 1, 2013, after receiving additional complaints
regarding the condition of the Swartzes’ livestock, Lee and
Dr. Lovejoy visited the Swartzes’ property to perform the
first of four inspections of their animals that spanned over
a year. (Filing No. 163 at 3; Filing No. 163-3.) At that time,
Dr. Lovejoy found that some of the horses were below normal
body condition, that overall the health and well-being of the
horses on the property were not in immediate jeopardy, but
there was concern the Swartzes’ ownership of some of the
38

animals “show signs of significant neglect.” (Filing No. 1633.) Dr. Lovejoy concluded the situation “requires continued
monitoring to determine if Mr. Swartz was willing and/or
able to provide adequate care for the horses under his ownership and care.” (Id.)
On January 15, 2014 and February 26, 2014, pursuant
to new complaints Lee had received concerning the condition
of the Swartzes’ animals, Lee and Dr. Lovejoy performed rechecks. (Filing No. 163-4.) Pursuant to those rechecks, Dr.
Lovejoy concluded there “remains significant concern over
the will and ability of Mr. and Mrs. Swartz to provide adequate care for the number of horses they currently own and/
or care for.” (Id.) Dr. Lovejoy determined the Swartzes would
be allowed the opportunity “to continue providing care for
the horses with rechecks planned to monitor the situation.”
(Filing No. 163-4.)
The Swartzes were continually addressing the severely overgrown hooves and other concerns with their animals.
In fact, the first time that Dr. Lovejoy and Lee visited the
Swartzes’ property together, a farrier, Dan Dowdy (“Dowdy”)
was there to address the overgrown hooves, which is a common problem with Midwestern donkeys. (Filing No. 176-1 at
2; Filing No. 176-5.) Dowdy, visited the Swartzes’ residence
12 times from May 1, 2013 to mid-December 2013. Id. Lee
visited the Swartzes’ residence on multiple occasions by himself and with Dr. Lovejoy, who evaluated the animals and
provided recommendations.
During each of her inspections, Dr. Lovejoy evaluated
the horses using the Henneke body condition scoring system,
which evaluates the amount of fat and muscling on a horse
and gives a Body Condition Score (“BCS”) from 1.0 (emaciated) to 9.0 (extremely fat). (Filing No. 167 at 5.) The Swartzes’
animals that Dr. Lovejoy inspected were also evaluated pursuant to BOAH’s Standards of Care 2013 for All Livestock
and Poultry. These Standards of Care are codified in the Indiana Administrative Code under 345 IAC 14-2 et seq. Id.
All of Dr. Lovejoy’s inspections were part of her duties with
39

BOAH.
The Swartzes take issue with the Henneke BCS scoring and note that Dr. Henneke, Ph.D., has published materials stating:
Over the past decade, the … BCS has become,
in many if not most cases, the sole reason for
seizure for neglect or abuse. The problem with
this is that the BCS was not designed to reflect
the health or well-being of the horse. The BCS
provides an estimate of stored body fat, period.
(Filing No. 180-19 at 1). The Swartzes also take issue with
Dr. Lovejoy’s scoring system regarding the goats. Dr. Lovejoy
evaluated the goats’ body conditions improperly, as the scoring system that she used to evaluate them was designed for
sheep, and sheep and goats have different body types.
Dr. Lovejoy’s concerns were based on (1) Mr. Swartz’s
report of feeding a mix of grain and added corn to the horses, making it difficult to determine the nutritional content
being provided, and (2) new issues observed at an inspection
performed February 26, 2014. (Filing No. 168-1 at 4.) The
new issues Dr. Lovejoy observed at the February 26, 2014
inspection were that (1) all of the horses lacked access to water, and (2) there was no grain observed on the property. Id.
at 5. Dr. Lovejoy observed that the horses’ water tank was
empty at the time of the February, 26, 2014 inspection. Mr.
Swartz filled the water tank while Dr. Lovejoy was present,
and she observed that all of the horses eagerly approached
the tank as it was filling and drank from it. Regarding the
grain, it was stored in Mr. Swartz’s car.
The Swartzes followed all of Dr. Lovejoy’s recommendations and provided their livestock with feed, water, and
shelter. (Filing No. 176-1.) Dr. Lovejoy visited the Swartzes’
residence for the last time on June 4, 2014, and falsely reported that the animals were in immediate jeopardy. (Filing
No. 96 at 5.) Lee and Dr. Lovejoy were encouraged by Combs
40

and others to seize the Swartzes’ livestock and to confiscate
their animals (Filing No. 96 at 5). In particular, on June 14,
2014, the Swartzes’ livestock was seized by Lee “under direction from Dr. Lovejoy and under encouragement from the
members of Heartland Equine Rescue (“Heartland”) and Upland Peaks Sanctuary (“Upland Peaks”) and others.1” Id.
On June 13, 2014 Lee signed a probable cause affidavit affirming that he had been investigating the welfare
of certain animals, that he believed probable cause existed
that the crime of neglect of a vertebrate animal had been
committed and pursuant to IC 35-46-3-6, and he had authority to seize said animals. (Filing No. 163-6.) That same day,
probable cause to seize the animals was found by a judge
who signed an Order to Seize. (Filing No. 163-7). Pursuant
to a court order dated June 13, 2014, the animals were seized
the next day. The Swartzes allege that probable cause for the
court order was based on false and misleading information.
On June 20, 2014, three counts of abandonment/neglect of a vertebrate animal were filed against the Swartzes, all Class A Misdemeanors under Indiana law. (Filing No.
163-10). That same date, the a Washington Circuit Court
judge entered an Order affirming the finding of probable
cause, issuing summons against the Swartzes, and setting
the matter for an initial hearing. (Filing No. 163-11.) The
Swartzes’ requested a probable cause hearing, but did not
post the required bond. Their request for a hearing was denied by the judge. A year later, a hearing was held on August
27, 2015 at which time the Swartzes were given value for the
seized animals which was discounted from the reimbursement costs owed to Heartland for the care and treatment of
the animals confiscated on June 14, 2014. (Filing No. 16312.)
Heartland is an organization located in Clark County, Indiana,
that rescues horses believed to be neglected which includes working with
law enforcement on neglect situations. Uplands is also an animal rescue
organization, located in Washington County, Indiana, that takes in rescued animals.
1

41

On November 4, 2015, the Swartzes entered into a
pretrial diversion agreement, deferring prosecution for 12
months and were ordered to pay fees and court costs. (Filing
No. 163-13.) Ultimately, by agreement with the State of Indiana, the Washington Circuit Court judge granted the State’s
motion to dismiss finding the Swartzes had complied with
the terms and conditions of their pretrial diversion, thereby dismissing the criminal action against them. (Filing No.
163-14.)
Post seizure, Dr. Lovejoy conducted four follow-up
visits to check on the condition of the seized animals. (Filing No. 163-15.) Ultimately, Dr. Lovejoy concluded the animals removed from the Swartzes’ care showed significant
improvement in their body conditions while receiving typical, normal care. Id. Maude, a 20 year plus horse died from
pneumonia and one goat died from complications following
surgery. (Filing 176-15.) Of the five remaining horses and
five remaining goats, all appeared to be in normal body condition, and their foster care provisions were meeting the
needs of the animals. Id. Dr. Lovejoy recommended that the
impounded animals would be best served if placed in permanent homes with individuals able and willing to provide
care and management adequate to meet their needs. Id. The
state court judge agreed with that recommendation.
On January 27, 2017, the Swartzes filed an amended
complaint under Title 42 U.S.C. § 1983 alleging the Sheriff Defendants, Dr. Lovejoy and others2, acted in concert to
cause certain of their livestock to be seized by the Washington
2
The Amended Complaint contained allegations against Defendants Heartland, Jo-Claire Corcoran, Debbie Moore, and Kelly Jo
Fithian-Wicker (collectively, the “Heartland Defendants”) and Defendants Uplands Peak and Michelle Pruitt (collectively, “Uplands Defendants”) and Defendant Marnie Bennett (“Bennett”). Each filed Motions
to Dismiss, except Bennett filed a Motion for Judgment on the Pleadings. The Court granted the Heartland Defendants’ and Uplands Defendants’ Motions to Dismiss (Filing No. 77; Filing No. 79) and Bennett’s
Motion for Judgment on the Pleadings (Filing No. 82), and those claims
were dismissed with prejudice. The claims against Dr. Lovejoy, Lee, and
Combs remained pending. (Filing No. 161.)

42

County Animal Officer on less than probable cause and their
animals were distributed to Uplands Peak and Heartland
based on false information and improper diagnostic analysis
(by Dr. Lovejoy) in violations of their Fourth and Fourteenth
Amendment rights under the United States Constitution.
(Filing No. 96 at 4.)
Regarding Combs, she made oral complaints to Lovejoy on April 26, 2013 (Filing No. 180-33 at 2). Combs also
had incidentally driven by the Swartzes’ property on occasion and personally observed the poor state of their animals.
(Filing No. 180-31 at 2.) Combs assisted Dr. Lovejoy on June
4, 2014, when she performed a Capillary Refill Test. (Filing No. 187 at 10.) The day after the seizure, Combs posted to Heartland’s webpage “[s]o happy they [the Swartzes’
livestock] are getting a chance at the life they are supposed
to have. Can’t wait to visit and see the improvements[;] it
has been a long year trying to get something done for these
guys.” (Filing No. 180-22.)
II. LEGAL STANDARD
The purpose of summary judgment is to pierce the
pleadings and to assess the proof in order to see whether
there is a genuine need for trial. Matsushita Electric Industrial Co. v. Zenith Radio Corp., 475 U.S. 574, 587 (1986).
Federal Rule of Civil Procedure 56 provides that summary judgment is appropriate if the movant shows that there
is no genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law. Fed. R. Civ.
P. 56(a). In ruling on a motion for summary judgment, the
court reviews the record in the light most favorable to the
non-moving party and draws all reasonable inferences in
that party’s favor. Anderson, 477 U.S. at 255; Zerante, 555
F.3d at 584. The party seeking summary judgment bears
the initial responsibility of informing the court of the basis
for its motion, and identifying “the pleadings, depositions,
answers to interrogatories, and admissions on file, together
with the affidavits, if any,” which demonstrate the absence
of a genuine issue of material fact. Celotex Corp. v. Catrett,
43

477 U.S. 317, 323 (1986) (noting that, when the non-movant
has the burden of proof on a substantive issue, specific forms
of evidence are not required to negate a non-movant’s claims
in the movant’s summary judgment motion, and that a court
may, instead, grant such a motion, “so long as whatever is
before the district court demonstrates that the standard . . .
is satisfied.”). See also Fed. R. Civ. P. 56(c)(1)(A) (noting additional forms of evidence used in support or defense of a summary judgment motion, including: “depositions, documents,
electronically stored information, affidavits or declarations,
stipulations . . . , admissions, interrogatory answers, or other materials”). Thereafter, a non-moving party, who bears
the burden of proof on a substantive issue, may not rest on
its pleadings but must affirmatively demonstrate by specific
factual allegations that there is a genuine issue of material
fact that requires trial. Hemsworth, 476 F.3d at 490; Celotex
Corp., 477 U.S. at 323–24; Fed. R. Civ. P. 56(c)(1).
Local Rule 56-1(f) provides that the court will assume
that “the facts as claimed and supported by admissible evidence by the movant are admitted without controversy except to the extent that:” 1) the non-movant specifically controverts the facts with admissible evidence; 2) the movant’s
facts are not supported by admissible evidence; or 3) the
facts, alone or in conjunction with other admissible evidence,
allow the court to draw reasonable inferences in the non-movant’s favor sufficient to preclude summary judgment.
“A document filed pro se is to be liberally construed,
and a pro se complaint, however inartfully pleaded, must be
held to less stringent standards than formal pleadings drafted by lawyers.” Erickson v. Pardus, 551 U.S. 89, 94 (2007)
(citations and quotation marks omitted). However, it is also
well established that pro se litigants are not excused from
compliance with procedural rules. Further, as the United
States Supreme Court has noted, in the long run, experience teaches that strict adherence to the procedural requirements specified by the legislature is the best guarantee of
evenhanded administration of the law. Feresu v. Trs. of Ind.
Univ., 2017 U.S. Dist. LEXIS 66452, at *18–19 (S.D. Ind.
44

May 2, 2017).
III. DISCUSSION
The Swartzes bring their claims of civil rights violations under 42 U.S.C § 1983. In particular, they allege that
their livestock was seized by Randy Lee, under direction from
Dr. Lovejoy and under encouragement from Combs and others, depriving them of property in contravention of their constitutional rights under the Fourth and Fourteenth Amendments. (Filing No. 96 at 4-5.) All Defendants assert that they
are protected by qualified immunity for their actions in relation to the investigation and seizure of the Swartzes’ animals. (Filing No. 162; Filing No. 166.) In evaluating whether the Swartzes’ claims can survive summary judgment, the
Court will first address the constitutional challenges and
then determine whether Defendants are entitled to immunity from the Swartzes’ § 1983 claims. Although the Sheriff
Defendants and Dr. Lovejoy have filed individual summary
judgment motions, for purposes of this discussion, the arguments are considered jointly.
A.

Motions to Strike

Dr. Lovejoy and the Sheriff Defendants have made
motions to strike certain filings made by the Swartzes. The
Court notes at the outset that motions to strike are generally disfavored. Heller Fin., Inc. v. Midwhey Powder Co., Inc.,
883 F.2d 1286, 1294 (7th Cir. 1989). Dr. Lovejoy has filed a
Motion to Strike Plaintiffs’ Surreply and Declaration (Filing
No. 188), as well as a request that the Court strike the Declaration of David Davis (“Davis”) (Filing No. 185 at 3). Local
Rule 56-1(d) allows a party to file a surreply only if a movant
cites new evidence in the reply or objects to the admissibility of the evidence cited in the response, and even then, the
surreply must be limited to the new evidence and objections.
S.D. Ind. L.R. 56-1(d). On January 11, 2018, the Swartzes
filed a Surreply to Defendant Jodi Lovejoy’s Amended Reply
in Support of Motion for Summary Judgment, attaching a
“Second Declaration of Jamie Swartz”. (Filing No. 187 at 10.)
45

Mr. Swartz’s Second Declaration includes statements related to the Swartzes’ Response Brief to co-Defendants Lee and
Combs’ Motion for Summary Judgment, Combs’ assistance
in performing a Capillary Refill Time test on June 4, 2014,
and statements regarding the Swartzes’ farrier, Dan Dowdy.
(Id. at 10–11.) Dr. Lovejoy argues that none of these statements relate to the Swartzes’ designation of David Davis as
an expert or fact witness, and thus should be stricken.
Local Rule 56-1(l) provides that the court “may, in the
interest of justice or for good cause, excuse failure to comply strictly with [L.R. 56-1]”. The Swartzes ask the Court to
accept their Surreply, stating that good cause exists as the
information in the Surreply is indeed a response to “new evidence”. The court has great discretion in ruling on a motion
to strike. Recognizing the Swartzes’ pro se status and determining that Dr. Lovejoy would not be prejudiced if the Court
were to consider the Swartzes’ Surreply and Second Amended Declaration of Jamie Swartz in relation to their Motion
for Summary Judgment, the Court finds in the interest of
justice that the Surreply should be considered. Therefore,
the Motion to Strike (Filing No. 188) is denied.
Dr. Lovejoy also argues that the Declaration of David
Davis (Filing No. 176-6) should be stricken for late disclosure
and Davis should be excluded as a Rule 26(a) or (e) witness.
Again, recognizing the Swartzes’ pro se status, the Court denies the request to strike Davis’ Declaration, and that declaration will be considered. Given the Court’s determination
that summary judgment is appropriate, the request to strike
Davis as a Rule 26 witness (Filing No. 185 at 3), is denied
as moot.
Finally, the Sheriff Defendants request that the
Swartzes’ Response be stricken as untimely filed (Filing No.
183 at 1). The deadline for filing the Response to the Sheriff Defendants’ summary judgment motion was December 5,
2017. The Swartzes filed their Response (Filing No. 175) on
December 6, 2017. Recognizing the Swartzes’ pro se status
and their inability to docket using CM/ECF, the Court ex46

cuses the late filing. The one day late filing caused no prejudice to the Defendants, therefore, the request to strike the
Swartzes response is denied.
B.

The Swartzes’ Fourth Amendment Claim

The Fourth Amendment to the United States Constitution protects “[t]he right of the people to be secure in their
persons, houses, papers, and effects, against unreasonable
searches and seizures.” U.S. Const. Amend. IV. “With few
exceptions, the Fourth Amendment generally requires that
the issuance of a warrant supported by probable cause precede any search.” United States v. Parker, 469 F.3d 1074,
1077 (7th Cir. 2006). In the Seventh Circuit, the courts defer to the warrant-issuing judge’s initial determination of
probable cause if “there is substantial evidence in the record
supporting the judge’s decision.” United States v. Lloyd, 71
F.3d 1256, 1262 (7th Cir.1995). “Probable cause exists if the
information available would justify a reasonable belief that
a crime has been committed.” Mahnke v. Garrigan, 428 Fed.
Appx. 630, 634 (7th Cir. 2011).
Before taking action, an officer is not required
to engage in a technical legal inquiry to determine whether every element of a particular
statute is satisfied. Rather, what matters is
the reasonableness of the officer’s exercise of
judgment at the time it was made, without the
benefit of hindsight and regardless whether the
officer’s belief turned out to be correct.
Id. (citing Siliven v. Indiana Dep’t. of Child Servs., 635 F.3d
921, 925–26 (7th Cir. 2011); Chelios v. Heavener, 520 F.3d
678, 686 (7th Cir. 2008).
An officer’s probable cause determination depends on
the elements of the applicable criminal statute. See Pourghoraishi v. Flying J, Inc., 449 F.3d 751, 761 (7th Cir.2006). Indiana Code § 35-46-3-6, provides that law enforcement may
seize an animal if probable cause exists to believe it has been
47

abandoned or neglected under IC § 35-46-3-7. The inquiry is
not to determine whether every element of a particular statute is satisfied, rather, what matters is the reasonableness
of the officer’s exercise of judgment at the time it was made,
without the benefit of hindsight and regardless whether the
officer’s belief turned out to be correct. Stokes v. Bd. Of Educ.
Of the City of Chicago, 599 F.3d 617, 622 (7th Cir. 2010). As
applied here, Lee relied on his personal observations and
Dr. Lovejoy’s recommendations before filing animal cruelty
charges against the Swartzes. After charges were issued, on
June 20, 2014 the Washington Superior Court entered an
Order Affirming Probable Cause and Issuance of Summons,
finding probable cause existed for the issuance of a summons
on those charges.
The Swartzes have not offered any evidence demonstrating a genuine dispute that probable cause was not
established for the seizure of their livestock. Dr. Lovejoy’s
reports contained substantial information showing the consistent deterioration of a pony, donkey, horses, and goats.
(Filing No. 163-3, Filing No. 163-4; Filing No. 163-5; Filing
No. 163-15.) In addition, the photographs of the animals depict deteriorated conditions. (Filing No. 163-8.) Dr. Lovejoy
witnessed, first-hand, the condition of these animals on the
last visit of June 4, 2014, only ten days before the seizure.
During the seizure on June 14, 2014, they found goats nailed
shut into the barn lying in their own feces, emaciated horses,
lack of drinking water, and lack of proper food. The Swartzes protest the subjective nature of Dr. Lovejoy’s evaluations
and recommendation; however, there is nothing improper
about providing her subjective, expert opinion. That plaintiff
has a differing subjective opinion does not defeat summary
judgment. For example: Mr. Swartz concedes in his declaration that the goats were in a stall with the door nailed
shut making it difficult to access the goats. In contrast, Mr.
Swartz argues that Dr. Lovejoy was the only one that needed
to use a ladder to get in and out of the pen and he personally
had no problem accessing the goats’ pen and the goats could
just jump in and out. Mr. Swartz does not dispute that there
was a buildup of manure in the goats’ pen making the floor
48

level higher, but explains that the pen was well bedded. He
admits that Goliath and Radar had overgrown hooves, but
complains that Dr. Lovejoy never left instructions on how to
trim or care for goats’ hooves.
The Swartzes challenge Dr. Lovejoy’s methods of testing and her misuse of the Henneke score and say she lied
about what she observed. However, the designated evidence
shows that Dr. Lovejoy documented each of her inspections,
transcribed her findings and conclusions with detailed reports, and also supplemented and corroborated her findings
with hundreds of photographs of the animals and their circumstances during the course of her involvement. What is
apparent is that Dr. Lovejoy and the Swartzes have differing
opinions on what constitutes livestock neglect. Importantly,
what matters is the reasonableness of Dr. Lovejoy’s exercise
of judgment at the time it was made, without the benefit of
hindsight and regardless whether her belief turned out to be
correct. See Stokes at 622.
Finally, the Court agrees with Dr. Lovejoy that the
Swartzes’ Fourth Amendment claims against her fail as a
matter of law because Dr. Lovejoy did not participate in
the seizure, nor did she participate in drafting the probable
cause affidavit or obtaining the seizure warrant, and therefore she lacks the requisite “personal involvement” for the
Swartzes’ § 1983 claim. For these reasons, the Court finds no
Fourth Amendment violations by Dr. Lovejoy.
Regarding Lee and Combs, they relied upon the Dr.
Lovejoy’s conclusions with respect to the physical health of
the Swartzes’ animals and viewed first-hand the neglect and
poor conditions of the animals. Lee attempted to work with
the Swartzes for well over a year to remedy what he considered deteriorating conditions. Like the officers in Mahnke,
Lee and Combs “had probable cause to believe that the horses were being kept in violation of [Indiana] law.” Mahnke,
428 Fed.Appx. at 635. In Mahnke, a deputy sheriff seized
five horses from Mahnke’s farm, because the deputy thought
the horses appeared to be starving and had other concerns
49

regarding their conditions. An explanation for the condition of the horses was offered, but the sheriff did not accept
that explanation. The court determined that the alternative
explanation, “did not, as Mahnke asserts, negate probable
cause for the seizure. Although a police officer cannot consciously disregard information that would bring clarity to a
confusing situation, Askew v. City of Chicago, 440 F.3d 894,
895–96, there is a meaningful distinction between disregarding potentially exculpatory information and disbelieving it.”
Mahnke at 635 (emphasis in original).
Here, the Swartzes argue that Lee and Combs lied
and gave false and misleading information in the affidavit
for probable cause; however, as noted above, differing subjective opinions do not constitute falsehood or lies. There
is simply no evidence, absent the Swartzes’ conclusory and
subjective opinions, that Lee or Combs “entertained serious
doubts as to the truth of their statements, had obvious reasons to doubt the accuracy of the information reported, or
failed to inform the judicial officer of facts they knew would
negate probable cause.” Beauchamp, 320 F.3d at 743. The
Court finds that the factual disputes raised by the Swartzes are immaterial to the central issue: whether Lee had a
reasonable basis to believe the Swartzes’ animals were in
immediate jeopardy when he signed the affidavit for probable cause. The Court finds no Fourth Amendment violation
occurred because the undisputed evidence shows there was
probable cause to seize the livestock at issue, and it was not
unreasonable under the circumstances.
C.

The Swartzes’ Fourteenth Amendment Claim

The Swartzes’ also assert claims against the Sheriff
Defendants and Dr. Lovejoy under 42 U.S.C. § 1983 for violation of their Fourteenth Amendment rights based on their
allegation that they were deprived of their property without
being afforded due process of law. In particular, the Swartzes allege that Combs and Lee, acting under color of state law,
violated their Fourteenth Amendment because the probable
cause affidavit was based on false information. Accepting as
50

true, that the probable cause affidavit contained false information, the Swartzes were afforded due process both before
and after the seizure. “[W]hen deprivations of property are
effected through random and unauthorized actions of state
employees and the state provides an adequate post-deprivation remedy, the requirements of due process are satisfied
and the plaintiff may not maintain a § 1983 suit in federal
court.” Wilson v. Civil Town of Clayton, Ind., 839, F.2d 375,
383 (7th Cir. 1988). The Swartzes were represented by counsel throughout the seizure proceedings and criminal proceedings. Washington County Ordinance 90.99 (C) provided
the Swartzes a post-deprivation remedy for an alleged improper seizure of their animals. This Ordinance specifically
provides an option for remedying an alleged improper seizure of their animals. Because the Swartzes were provided a
post-deprivation remedy, the seizure of the animals did not
constitute a Fourteenth Amendment violation.
In addition, the Swartzes had an opportunity in the
state criminal proceedings to challenge the confiscation of
the animals and Dr. Lovejoy’s methods and findings, to prove
the animals should have been returned to them, and to raise
their claims of a conspiracy to violate their civil rights. They
were represented by private counsel during those proceedings, and had an opportunity to, and did in fact, depose Dr.
Lovejoy and present evidence and argument on their own
behalf. A state trial court judge determined that probable
cause existed to seize the animal and the Swartzes had a
statutory right to a hearing on that determination. Although
the state court judge denied their request for a probable
cause hearing, ruling that probable cause had already been
established to initially seize the animals, the Swartzes still
had a full and fair opportunity to raise their purported issues with regards to Dr. Lovejoy’s evaluation and methods.
In subsequent proceedings, a state trial court judge determined that the animals should be permanently placed with
other people, and ordered the Swartzes to pay restitution to
Heartland for boarding the animals after the seizure. Further, the state trial court credited the Swartzes the value of
the livestock seized to offset any restitution they were re51

quired to pay. The Swartzes cannot now seek to reverse the
finding and order of the state trial court through a §1983
lawsuit. A seizure arising from a criminal investigation does
not threaten due process where, as here, the state requires a
fair and reliable determination of probable cause as a condition to the seizure. See Memphis Light, Gas and Water Div.
v. Craft, 56 L.Ed.2d 30 (1978); Reams v. Irvin, 561 F.3d 1258,
1264 (11th Cir. 2009).
Moreover, principles of collateral estoppel also bar the
Swartzes’ challenge on whether the seizure and disposition
of the animals was legal and proper. No Fourteenth Amendment claims survive because the Swartzes were afforded adequate due process at all times.
D.

Defendants are entitled to Qualified Immunity

Qualified immunity protects government officials
from liability “when they act in a manner that they reasonably believe to be lawful.” Gonzalez v. City of Elgin, 578 F.3d
526, 540 (7th Cir. 2009). In other words, government officials performing discretionary functions are entitled to qualified immunity if their conduct could reasonably have been
thought consistent with the rights they are alleged to have
violated. Borello v. Allison, 446 F.3d 742, 746 (7th Cir. 2006)
(citing Sornberger v. City of Knoxville, 434 F.3d 1006, 1013
(7th Cir. 2006)). Qualified immunity not only protects a defendant from liability, but also from the burden of standing
trial. Id. As such, “courts should determine as early on in
the proceedings as possible whether a defendant is entitled
to qualified immunity.” Id. When presented with a qualified
immunity defense, the court must first “(1) determine whether the plaintiff has alleged the deprivation of an actual constitutional right and, (2) if so, determine whether that right
was clearly established at the time of the alleged violation.”
Sparing v. Village of Olympia Fields, 266 F.3d 685, 688 (7th
Cir. 2001) (citing Saucier v. Katz, 533 U.S. 194 (2001)).
Although qualified immunity is an affirmative defense, the burden of defeating an assertion of qualified im52

munity rests with the plaintiff. Id. (citing Spiegel v. Cortese,
196 F. 3d 717 (7th Cir. 1999)). Accordingly, the Swartzes
bear the burden of showing that the constitutional right allegedly violated was clearly established before the Sheriff
Defendants and Dr. Lovejoy acted by offering either a closely
analogous case or evidence that the Sheriff Defendants and
Dr. Lovejoy’s conduct so patently violated the constitutional
right that reasonable officials would know so without guidance from the courts. Gossmeyer v. McDonald, 128 F.3d 481,
496 (7th Cir. 1997) (citing Casteel v. Pieschek, 3 F.3d 1050,
1053 (7th Cir. 1993)).
The “clearly established” standard requires the contours of the right to be sufficiently clear such that a reasonable official would understand that what he is doing violates
that right. Wilson v. Layne, 526 U.S. 603, 614-15 (1999); Doe
v. Bobbitt, 881 F.2d 510, 511 (7th Cir. 1989). In ascertaining
whether a particular right has been “clearly established,”
the Seventh Circuit looks either to binding precedent from
the U.S. Supreme Court or this Circuit or, in the absence
of controlling authority on point, such a clear trend in the
case law that the recognition of the right by a controlling
precedent was merely a question of time. Donovan v. City of
Milwaukee, 17 F.3d 944, 952 (7th Cir. 1994).
The Swartzes’ claims for damages are barred because
the Sheriff Defendants and Dr. Lovejoy’s actions were discretionary functions based upon their professional judgments.
The Swartzes have not pointed to any Supreme Court or Seventh Circuit precedent establishing that a state employed
veterinarian can be held liable under § 1983 for providing
her professional opinion regarding the health and well-being
of animals while performing an animal welfare investigation
or submitting a court ordered recommendation. Likewise,
they have not pointed to any Supreme Court or Seventh Circuit precedent establishing that an Animal Control Officer
and Records Clerk employed by a county sheriff ’s department can be held liable under § 1983 for performing their
official duties.
53

The Swartzes argue that Dr. Lovejoy and Lee acted
incompetently and knowingly helped establish false probable cause. (Filing No. 175 at 33.) Even if probable cause did
not actually exist, Dr. Lovejoy and Lee are still protected by
qualified immunity because they could reasonably believe
the Swartzes’ animals were neglected and improperly cared
for. See Abbot v. Sangamon County, Ill., 705 F.3d 706, 71415 (7th Cir. 2013) (finding that “officers who reasonably but
mistakenly believe that probable cause exists” are shielded
by qualified immunity). The probable-cause standard inherently allows room for reasonable mistakes, see Brinegar, 338
U.S. at 176, 69 S.Ct. 1302, but qualified immunity affords an
added layer of protection by shielding officers from “suit for
damages if ‘a reasonable officer could have believed [the arrest] to be lawful, in light of clearly established law and the
information the [arresting] officers possessed.’” Hunter v.
Bryant, 116 L.Ed.2d 589 (1991). The Swartzes cannot overcome the validity of the judicial finding of probable cause
in this case, and no Fourth Amendment violations can be
shown. In addition, the Swartzes were afforded due process
under the law, so no Fourteenth Amendment violations can
be shown. Accordingly, the Defendants are entitled to qualified immunity as a matter of law on the § 1983 claims.
E.

Conspiracy Claim

Finally, the Court will address the conspiracy claim.
To sustain a claim of conspiracy, there must be some understanding or “meeting of the minds” between the private actor and state actor to deny plaintiffs a constitutional right.
Adickes v. S.H. Kress & Co., 398 U.S. 144, 158 (1970). This
requires the Swartzes to demonstrate the existence of a joint
action, concerted effort, or general understanding among the
Defendants. Again, at most the Swartzes offer only vague allegations that the Sheriff Defendants and Dr. Lovejoy were
“encouraged” to seize livestock by private entities (the Heartland Defendants and Uplands Peak Defendants), however
there are no factual allegations supporting such encouragement. The Swartzes offer nothing more than conclusory allegations of conspiracy based on the Defendants carrying out
54

their governmental missions of seizing suspected neglected
animals.
The Swartzes allege that Combs, in her role as Washington County Sheriff Records Clerk, contacted Heartland
who then contacted Uplands Peak and in concert they
emailed Dr. Lovejoy to tell her that they had someone to
take the goats one week before the seizure. (Filing No. 104
at 2.) The Swartzes also present an allegation concerning
a posting from Combs on Heartland’s website. The posting
states: “[s]o happy they [the Swartzes’ livestock] are getting
a chance at the life they are supposed to have. Can’t wait
to visit and see the improvements[;] it has been a long year
trying to get something done for these guys.” (Filing No. 18022.) Neither the email or posting show an understanding between Uplands Peak, Heartland, Combs, and state officials
to deprive the Swartzes of constitutional rights; rather, it
is a conclusory allegation of conspiracy based on the Defendants carrying out their organizational missions of rescuing
suspected neglected animals. The Swartzes have failed to
allege or present actual evidence, facts, or an independent
knowledge, that such “encouragement” took place. The law
requires more to sustain a claim of conspiracy. The subjective, unsupported “inference” drawn from an email and posting comment, without more, is not enough. The Swartzes
have presented no evidence that there was a “meeting of the
minds,” therefore the conspiracy claims do not survive summary judgment.
IV.

CONCLUSION

For the reasons stated above, Randy Lee’s and Meghan
Combs’ and Dr. Lovejoy’s Motions for Summary Judgment
(Filing No. 162, Filing No. 166) are GRANTED. Dr. Lovejoy’s Motion to Strike Plaintiffs’ Surreply (Filing No. 188) is
DENIED. This action is TERMINATED.
Final judgment will issue in a separate document.
SO ORDERED.
55

Date: 9/27/2018		
s/ Tanya Walton Pratt
				TANYA WALTON PRATT, JUDGE
				United States District Court		
				Southern District of Indiana
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
NEW ALBANY DIVISION
JAMIE SWARTZ,
SANDRA SWARTZ,

)
)
)
Plaintiffs,
)
)
v.
) Case No. 4:16-cv-00095		
)			TWP-DML
		 )
RANDY LEE,
)
JODI LOVEJOY,
)
MEGHAN COMBS,
)
)
Defendants. )
FINAL JUDGMENT
The Court, having this day made its Entry of final
Judgment, now enters FINAL JUDGMENT.
Judgment is hereby entered in favor of Defendants
Randy Lee, Jodi Lovejoy, and Meghan Combs, and against
Plaintiffs Jamie Swartz and Sandra Swartz. Plaintiffs shall
take nothing by way of their Second Amended Complaint,
and this action is hereby TERMINATED.
Dated: 9/27/2018		
s/ Tanya Walton Pratt
				TANYA WALTON PRATT, JUDGE
56

				United States District Court		
				Southern District of Indiana
Laura A. Briggs, Clerk of Court
Deputy Clerk
Federal Constitutional Provisions
4th Amendment Unreasonable searches and seizures
The right of the people to be secure in their persons, houses, papers, and effects, against unreasonable searches and
seizures, shall not be violated, and no Warrants shall issue,
but upon probable cause, supported by Oath or affirmation,
and particularly describing the place to be searched, and the
persons or things to be seized.
14th Amendment
Sec. 1. [Citizens of the United States.] All persons born or
naturalized in the United States, and subject to the jurisdiction thereof, are citizens of the United States and of the
State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State deprive
any person of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the equal
protection of the laws.
...
Sec. 5. [Power to enforce amendment.] The Congress shall
have the power to enforce, by appropriate legislation, the
provisions of this article.
Federal Statutes
42 USC § 1983. Civil action for deprivation of rights
Every person who, under color of any statute, ordinance,
regulation, custom, or usage, of any State or Territory of the
District of Columbia, subjects, or causes to be subjected, any
57

citizen of the United States or other person within the jurisdiction thereof to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws, shall be
liable to the party injured in an action at law, suit in equity,
or other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or omission taken in such officer’s judicial capacity, injunctive relief
shall not be granted unless a declaratory decree was violated
or declaratory relief was unavailable. For the purposes of
this section, any Act of Congress applicable exclusively to
the District of Columbia shall be considered to be a statute
of the District of Columbia.
State Statutes
Indiana Code 2018
IC 35-46-3-6

Impoundment of animals; probable 		
cause hearings; penalties; custody; 		
bond

		
Sec. 6. (a) This section does not apply to a violation of
section 1 of this chapter.
(b) Any law enforcement officer or any other person having authority to impound animals who has probable cause to
believe there has been a violation of this chapter or IC 15-201-4 may take custody of the animal involved.
(c) The owner of an animal that has been impounded
under this section may prevent disposition of the animal by
an animal shelter that is caring for the animal by posting,
not later than ten (10) days after the animal has been impounded, a bond with the court in an amount sufficient to
provide for the animal’s care and keeping for at least thirty
(30) days, beginning from the date the animal was impounded. The owner may renew a bond by posting a new bond, in
an amount sufficient to provide for the animal’s care and
keeping for at least an additional thirty (30) days, not later than ten (10) days after the expiration of the period for
which a previous bond was posted. If a bond expires and
is not renewed, the animal shelter may determine disposi58

tion of the animal, subject to court order. If the owner of
an animal impounded under this section is convicted of an
offense under this chapter or IC 15-20-1-4, the owner shall
reimburse the animal shelter for the expense of the animal’s
care and keeping. If the owner has paid a bond under this
subsection, the animal shelter may euthanize an animal if a
veterinarian determines that an animal is suffering extreme
pain.
(d) If the owner requests, the court having jurisdiction
of criminal charges filed under this chapter of IC 15-20-1
shall hold a hearing to determine whether probable cause
exists to believe that a violation of this chapter or IC 15-20-1
has occurred. If the court determines that probable cause
does not exist, the court shall order the animal returned to
its owner, and return of any bond posted by its owner.
(e) Whenever charges are filed under this chapter, the
court shall appoint the state veterinarian under IC 15-17-41 or the state veterinarian’s designee to:
(1) investigate the condition of the animal and the
circumstances relating to the animal’s condition; and
(2) make a recommendation to the court under
subsection (f) regarding the confiscation of the animal.
(f) The state veterinarian or the state veterinarian’s
designee who is appointed under subsection (e) shall do the
following:
(1) Make a recommendation to the court concerning whether confiscation is necessary to protect the safety
and well-being of the animal.
(2) If confiscation is recommended under subdivision (1), recommend a manner for handling the confiscation
and disposition of the animal that is in the best interests of
the animal.
The state veterinarian or the state veterinarian’s designee
who submits a recommendation under this subsection shall
articulate to the court the reasons supporting the recommendation.
(g) The court:
(1) shall give substantial weight to; and
(2) may enter an order based upon;
a recommendation submitted under subsection (f). . . .
59

CIVIL CASE NO: 4:16-cv-0095-TWP-DML
_________________________
IN THE
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
NEW ALBANY DIVISION
_______________________________________________________
JAMIE SWARTZ
SANDRA SWARTZ
PLAINTIFFS
V.
HEARTLAND EQUINE RESCUE
UPLANDS PEAK SANCTUARY
RANDY LEE
JODI LOVEJOY
MICHELLE PRUITT
JO CLAIRE CORCORAN
DEBBIE MOORE
KELLY JO FITHIAN-WICKER
MARNIE BENNETT and
MEGHAN COMBS
SECOND AMENDED COMPLAINT
I.

JURISDICITIONAL STATEMENT

Federal jurisdiction is proper in this cause as alleged
violations of the 4th and 14th Amendments to the Constitution of the United States of America and 42 USC Sections
1983 and 1985 invoke jurisdiction by way of 28 USC Sections 1331 and 1343(3).
Jurisdiction in the Southern District of Indiana,
New Albany Division is proper because the Plaintiff lives in
60

Washington County Indiana and all of the events which give
rise to this cause of action occurred in Washington County
Indiana and Washington County is in the Southern District
of Indiana, New Albany Division.
II.

PARTIES
Plaintiffs:
Jamie Swartz, 7747 N. Rush Creek, Salem, IN 47167
Sandra Swartz, 7747 N. Rush Creek, Salem, IN 47167
Defendants:
Heartland Equine Rescue
3812 Speith Rd
Henryville, IN 47126
Uplands PEAK Sanctuary
4205 W. Grandview Road
Salem, IN 47167
Randy Lee
Washington County Animal Control
Officer c/o Washington County Sheriff ’s Dept.
801 Jackson St, Salem, IN 47167
Meghan Combs
Washington County Sheriff Department
Officer c/o Washington County Sheriff ’s Dept.
801 Jackson St, Salem, IN 47167
Jodi Lovejoy
Veterinarian for the Indiana State Board of Animal 		
Health
c/o Office of the State of Veterinarian
Discovery Hall, Suite 100
1202 East 38th Street
Indianapolis, IN 46205-2898
61

Michelle Pruitt
c/o Uplands PEAK Sanctuary
4205 W. Grandview Road
Salem, IN 47167
Jo Claire Corcoran
c/o Heartland Equine Rescue
3812 Speith Rd
Henryville, IN 47126
Debbie Moore
c/o Heartland Equine Rescue
3812 Speith Rd
Henryville, IN 47126
Kelly Jo Fithian -Wicker
c/o Heartland Equine Rescue
3812 Speith Rd
Henryville, IN 47126
Marnie Bennett
9284 N. Rush Creek Road
Salem, Indiana 47167
GENERAL ALLEGATIONS
1)
At all times relevant to this action, Jamie
Swartz and Sandra Swartz lived at 7747 N. Rush Creek,
Salem, IN, which is in Washington County, Indiana.
2)
All of the events which give rise to this cause of
action occurred in Washington County Indiana.
3)
Randy Lee was a State Actor as he was employed as the Washington County Animal Control Officer at
all times relevant to this cause and acted under color of law.
4)
Jodi Lovejoy was a State Actor as she was employed as a State Veterinarian at all times relevant to this
cause of action and acted under color of law.
62

5)
Uplands Peak Sanctuary was an organization
in Washington County Indiana that “rescued” animals that
were believed to be neglected, at all times relevant to this
cause.
6)
Michelle Pruitt, at all times relevant to this
cause was an integral part of Uplands Peak Sanctuary. She
is co-owner and co-founder of Uplands Peak.
7)
Heartland Equine Rescue at all times relevant
to this cause was an organization at Henryville in Clark
County Indiana that rescued horses believed to be neglected.
8)
Jo Claire Corcoran, Debbie Moore, and Kelly
Jo Fithian-Wicker at all times relevant to this cause were
integral actors in Heartland Equine Rescue’s endeavors and
acted under color of law by assisting the authorities with
the illegal seizure of the livestock and conspiring with and
agreeing to the seizure.
9)
Meghan Combs was a State Actor as she was
employed as a Washington County Sheriff Dispatcher that
accompanied Randy Lee and was a confidant of Marnie Bennett at all times relevant to this cause, and acted under color
of law.
10)
Marnie Bennett at all times relevant to this
cause was a close friend and confidant of Debbie Moore and
Meghan Combs and lived at 9284 N. Rush Creek Road, Salem, Indiana 47167.
42 U.S.C Section 1983
Plaintiffs herein allege that the defendants and all of
them, acted in concert to cause certain livestock of Plaintiffs
to be seized by the Washington County Animal Control Officer on less than probable cause and distributed to Uplands
Peak Sanctuary and Heartland Equine Rescue based on
false information and improper diagnostic analysis contrary
to the 4th and 14th Amendments to the Constitution of the
63

United States, and said livestock was retained by Uplands
Peak and Heartland.
Prior to the seizure on June 14th, 2014, Marnie Benett had trespassed on the Plaintiffs property to inspect the
feed stocks for Plaintiffs horses and goats and being a close
friend and confidant of Debbie Moore, encouraged Meghan
Combs, Debbie Moore and Randy Lee, the Washington County Animal Control Officer to seize the Plaintiff ’s livestock including several horses, six goats and a donkey to distribute
the said livestock to Heartland and Uplands Peak. Bennett
acted under color of law by “trespassing” for Combs and Lee
and agreed with Heartland and the State Actors to get the
livestock of Plaintiffs seized.
Several months prior to the seizure, the Plaintiffs had
contacted the local veterinarian because they felt that their
horses were not thriving as they should have. They followed
the recommendations of their local vet.
After Bennet’s trespass and encouragement from Bennett, Moore, and Combs, Randy Lee acting under color of law
visited the Plaintiffs residence by himself and then later on
multiple occasions along with Dr. Jodi Lovejoy. Dr. Lovejoy made recommendations which the Plaintiffs followed.
Dr. Lovejoy evaluated the horses in accordance with the
“Henneke” body condition scale to determine neglect, which
according to Dr. Henneke, the founder of that scale, is improper and the scale is meant only for analysis for breeding
purposes. Dr. Lovejoy also evaluated the goats according to
a body condition analysis meant for sheep which is incorrect
as goats and sheep are of different body types. The Plaintiffs followed all the directions given to them by Dr. Lovejoy
who visited their residence unannounced on multiple occasions and the livestock had ample feed, water and shelter
and they had not neglected their livestock contrary to some
of the reports. However, the livestock was seized by Randy
Lee, under direction from Dr. Lovejoy and under encouragement from the members of Heartland and Upland Peaks.
There were allegations of neglect, lack of feed, water and
64

shelter and criminal charges were filed against Plaintiffs.
There was an email from Debbie Moore to the State
vet stating they have “someone to take goats” on June 6th
2014, so Uplands Peak had already agreed with Heartland
(thus encouraging Heartland) to take the goats and this was
a week before the seizures. Therefore, Uplands Peak knew
that the State actors would act and agreed with the co-conspirators at Heartland for Animal Control and the state vet
to seize the Swartz livestock as the goats went to Uplands
Peak.
Dr. Lovejoy visited for the last time on June 4th, 2014,
and on June 6th, Heartland was posting they were getting
Plaintiff ’s livestock. Dr. Lovejoy’s report falsely stated the
animals were in immediate jeopardy and Randy Lee, Meghan
Combs and Heartland confiscated the livestock pursuant to
court order on June 13th, 2014 on a probable cause based
on false and misleading information. Present and assisting
with the seizure of the livestock were, Randy Lee, Meghan
Combs, Jo-Claire Corcoran, Kelly Jo-Fithian Wicker, Debbie
Moore and people from three television stations.
Meghan Combs accompanied Randy Lee and Dr. Lovejoy on the June 4th, 2014 visit offering Dr. Cooper as personal veterinarian for the Plaintiffs to consult. After seizure of
animals Meghan Combs posted on Facebook that she had
been involved in this case over the past year to get animals
removed from the Plaintiff ’s property.
Plaintiffs were injured by losing the value of their
livestock and having them seized illegally in contravention
of the 4th and 14th Amendments due to the conspiracy of all
of the Defendants.
As ancillary to this action, Michelle Pruitt posted a
picture of a horse that didn’t belong to Plaintiffs in association with the criminal case which was eventually dismissed
and committed libel. The date of the posting of the picture
is unknown, but the picture was of a severely malnourished
65

horse which would infer criminal activity by the Swartzs for
animal neglect a copy of that post is attached as ex. A. The
posting was shortly after the animals were seized in conjunction with an online petition which was trying to get the
local prosecutor to give harsh penalties to the Swartzs. That
picture was extremely misleading to anyone who was looking at the online petition. Further such a misleading representation had to be malicious attempt to have the Swartz’s
fined and put in jail. The reputation of the Swartzs was severely damaged with the inference that they were engaged
in criminal activity.
Further, the folks at Heartland have posted several
libelous statements against Plaintiff disparaging their reputation in relation to the incident which would infer criminal
activity by the Swartzs thus disparaging their reputation.
A copy of the statements Plantiffs have found so far are attached as ex B. These statements were made in a malicious
attempt to take and keep or distribute Plaintiffs livestock.
DECLARATION UNDER PENALTY OF PERJURY
The undersigned declares under penalty of perjury
that they are the plaintiffs in the above action, and have
read the above complaint, and that the information contained therein is true and correct to the best of their knowledge.
Respectfully submitted,
s/ Jamie Swartz			
Jamie Swartz, Pro Se			
7747 N. Rush Creek		
Salem, IN 47167			
s/Sandra Swartz
Sandra Swartz, Pro Se
7747 N. Rush Creek
Salem, IN 47167
66

88D01-1406-MC-000338
IN THE SUPERIOR COURT
COUNTY OF WASHINGTON
STATE OF INDIANA
PROBABLE CAUSE AFFADAVIT
Animal Control Officer Randy Lee of Washington
County Animal Control does affirm:
1. That he has been investigating the welfare of certain animals whose condition is detailed in the attached Animal Welfare Report prepared by Dr. Lovejoy;
2. That this affiant believes that probable cause exists that
the crime of neglect of a vertebrate animal has been committed and that pursuant to IC 35-46-3-6 he has the authority
to seize said animals;
I affirm under the penalties for perjury that the foregoing representations are true.
Dated this 13 day of June, 2014
										
						s/ Randy Lee
						Randy Lee, Affiant
Witnessed by Frank Newkirk Jr., Judge of the Washington
Superior Court - June 13, 2014 at 4:11 p.m.

88D01-1406-MC-000338
IN THE SUPERIOR COURT
COUNTY OF WASHINGTON
STATE OF INDIANA
						CAUSE NO.: 88D01ORDER TO SEIZE
67

Lee:

To Washington County Animal Control Officer Randy

WHEREAS, the Court has reviewed the Affidavit for
Probable Cause and Animal Welfare Case Report attached
and submitted by Randy Lee, and the Court being duly advised in the premises, now finds that there is probable cause
that the crime of abandonment or neglect of a vertebrate animal in violation of I.C. 35-46-3-7 has been committed;
And therefore pursuant to IC 35-46-3-6 Section 6(b)
which states that “any law enforcement officer or other person having authority to impound animals who has probable
cause to believe there has been a violation of this chapter...
may take custody of the animal involved” does now Order
the seizure of said animals located 7747 North Rush Creek
Road, Salem, Indiana.
So ORDERED this 13 day of June 2014 at 4:11 p.m.
					s/ Frank Newkirk, Jr.
					Frank Newkirk, Jr., Judge
					Washington Superior Court

IN THE WASHINGTON CIRCUIT COURT
STATE OF INDIANA
COUNTY OF WASHINGTON
CAUSE NUMBER: 88C01-1406-CM-000326
STATE OF INDIANA
vs
JAMIE SWARTZ
ORDER AFFIRMING PROBABLE CAUSE
AND ISSUANCE OF SUMMONS
68

The State of Indiana by its Deputy Prosecuting Attorney, Melissa Campbell, files an Affidavit for Probable Cause
which is examined by the Court. From said examination, the
Court finds on the 16TH day of JUNE, 2014, that probable cause does exist for the summons of the Defendant for
the crime of: ABANDONMENT/NEGLECT OF A VERTEBRATE ANIMAL, A CLASS A MISDEMEANOR (3
COUNTS). Cause is now set for Initial Hearing on the
24TH day of JULY, 2014 at 8:30 A.M. Order entered this
20 day of June, 2014.
					s/ Larry W. Medlock		
					Larry W. Medlock, Judge
					Washington Circuit Court
				
				
Filed w/the Clerk and Entered
					Into RJO 6-20-2014
Minute Entry from CCS
CAUSE NO. 88C01-1406-CM-000325
STATE OF INDIANA vs SANDRA SWARTZ
07/24/2014

Hearing Journal Entry

Hearing held. State by Melissa Campbell. Defendant in person and with counsel, Dale Arnett. Parties agree to consolidate cases. Order to follow.
IN THE WASHINGTON CIRCUIT COURT
STATE OF INDIANA
COUNTY OF WASHINGTON
STATE OF INDIANA
vs
69

SANDRA SWARTZ CAUSE NO.88C01-1406-CM-000325
JAMIE SWARTZ
CAUSE NO.88C01-1406-CM-000326
ENTRY ON HEARING JANUARY 15, 2015
Comes now the Court and having taken the State’s
Motion for Authority to Find Permanent Placement for Foster Animals and the Defendant’s Motion to set a Hearing
to determine whether there was probable cause to impound
the Defendant’ s animals now hereby finds and orders the
following:
1.
That the Defendant’s Motion to Set a probable
cause hearing is DENIED..In that the Court affirmed probable cause and directed the issuance of summons on June
20,2014.
2.
That the States Motion for Authority to Find
Permanent Placement for Foster Animals is DENIED at this
time.
3.
That the Court directs the State Veterinary or
it’s designee to make a recommendation to the Court concerning the disposition of the animals confiscated and the
reasons supporting recommendation.
SO ORDERED this 30 day of January, 2015.
		
					s/ Larry W. Medlock
					Larry W. Medlock, Judge
					Washington Circuit Court
cc:

Prosecutor
Dale Arnett
Jodi Lovejoy, DVM

70

IN THE CIRCUIT COURT
FOR WASHINGTON COUNTY
STATE OF INDIANA
STATE OF INDIANA
vs.

CAUSE NO: 88C0I-1406-CM-000326

JAMIE SWARTZ
ORDER GRANTING AUTHORITY
This matter having coming before the Court on the
State of lndiana’s Motion for Authority to Find Permanent
Placement, and the Court having considered the same, does
now grant an order granting authority to the personnel at
the Heartland Equine Rescue and Uplands Peak Sanctuary
to find permanent placement for the animals in their care.
SO ORDERED this 14 day of April 2015.
					s/ Larry W. Medlock
					Larry W. Medlock, Judge
					Washington Circuit Court
Distribution to:
Defendant
PA
Dale Arnett
WASHINGTON CIRCUIT COURT
STATE OF INDIANA
COUNTY OF WASHINGTON
STATE OF INDIANA
vs
71

SANDRA SWARTZ CAUSE NO.88C01-1406-CM-000325
DOB 12/10/1966
ORDER
ON PRETRIAL DIVERSION AGREEMENT
Comes now the State of Indiana by its Prosecuting
Attorney’s office and comes now the defendant and files Pretrial DIVERSION Agreement.
The Court now accepts Pretrial DIVERSION Agreement and hereby orders this cause to be deferred for 12
MONTHS. The Court orders the Defendant to pay $50.00
initial Pretrial DIVERSION User Fee and $10.00 per month
thereafter on or before the 15th day of each month, starting
on the 15th day of November, 2015.
1.
2.
3.
4.
5.

The Court further orders the following:
Not commit another offense during the period of this
agreement.
Pay Court Cost in the amount of $163.00.
Support his/her dependents.
Report to the Washington County Prosecutor’s Office
and notify of any change of address or employment 		
within 7 days.
Follow Court Order regarding reimbursement.

Court authorizes the Clerk of this Court to collect all
payments associated with this agreement. Cash bond ordered applied.
ALL OF WHICH IS ORDERED this 4 day of November,
2015.
				
s/ Larry W. Medlock			
				
LARRY W. MEDLOCK, Judge
				
Washington Circuit Court
CC: Prosecuting Attorney
Dale Arnett
72

IN THE WASHINGTON CIRCUIT COURT
STATE OF INDIANA
COUNTY OF WASHINGTON
CAUSE NUMBER: 88C01-1406-CM-000326
STATE OF INDIANA
VS
JAMIE SWARTZ

ORDER GRANTING MOTION TO DISMISS
COMES NOW the State of Indiana and files its Motion to Dismiss the above entitled cause and the Court, being
duly advised that the Defendant has complied with all terms
and conditions of pre-trial diversion agreement, does hereby
order that said motion to dismiss be granted.
All of which is ordered this 21 day of March, 2016.
					
					s/ Larry W. Medlock		
					Larry Medlock, Judge
					Washington Circuit Court
TCN:
Dale Arnett

73

IN THE WASHINGTON CIRCUIT COURT
STATE OF INDIANA
COUNTY OF WASHINGTON
CAUSE NUMBER: 88C01-1406-CM-000325
STATE OF INDIANA
VS
SANDRA SWARTZ

ORDER GRANTING MOTION TO DISMISS
COMES NOW the State of Indiana and files its Motion to Dismiss the above entitled cause and the Court, being
duly advised that the Defendant has complied with all terms
and conditions of pre trial diversion agreement, does hereby
order that said motion to dismiss be granted.
All of which is ordered this 21 day of March, 2016.
					
					s/ Larry W. Medlock		
					Larry Medlock, Judge
					Washington Circuit Court
TCN:
Dale Arnett

74

IN THE
WASHINGTON CIRCUIT COURT
CAUSE NO 88C01-1406-CM-000325
& 88C01-1406-CM-000326
STATE OF INDIANA
VS
SANDRA SWARTZ,
JAMIE SWARTZ
TRANSCRIPT OF HEARING
APRIL 2, 2015
MS. MELISSA CAMPBELL
DEPUTY PROSECUTING ATTORNEY
806 MARTINSBURG ROAD, STE 202
SALEM, IN. 47167
812 883 6560
FOR THE STATE
MR. DALE ARNETT
ATTORNEY AT LAW
102 HOSPITAL ROAD
WINCHESTER, IN. 47394
765 584 2507
FOR THE DEFENDANTS
NANCY ROBERTS
OFFICIAL COURT REPORTER
812 883 5302, EXT 1204
75

TRANSCRIPT OF HEARING APRIL 2, 2015
THE COURT:
		
88C01-1406-CM-325 and 326, State of Indiana
versus Sandra Swartz and Jamie Swartz.
		
This matter was set for a pre trial conference,
uh, last time we were here, there were arguments in regards to uh, the placement of animals, certain animals uh,
which I took under advisement and issued an order to the
State Veterinarian’s Office to give me an assessment and a
report with respect to that issue, this matter is set for uh,
trial on April the 14th.
		
Uh, Ms. Campbell, what’s the State’s position
in regards to uh, the placement of animals at this particular point in time now that you’ve seen the report.
MS. MELISSA CAMPBELL, DEPUTY PROSECUTING ATTORNEY:
		
I would ask, Judge, that the Court enter an order consistent with the recommendation of the Dr. Lovejoy.
THE COURT:
		Mr. Arnett?
MR. DALE ARNETT:
		
Uh, Your Honor, we, we would to such a placement, uh, they were removed upon probable cause which
is a fairly low standard and we know that our system of
justice isn’t perfect and, uh, we can go back maybe to the
case of Mohamed Ali where he was uh, he wouldn’t step
forward to go into the military and then he eventually
acquitted in Federal Court, cost him millions of dollars, uh,
it’s not exactly like this case, but, but those things happen
and, and judge we feel that my clients would be, uh, put at
a financial disadvantage if they would get acquitted in this
case then uh, you know, they’ve lost a few thousand dollars
worth of livestock.
		
So, we would object, Judge.

76

THE COURT:
		Understand.
		
Well, Mr. Arnett, I, I know you don’t come
down here a lot, but my general position is, well, if I’m gonna err, I’m gonna err in favor of those that are not capable
of caring for themselves, children, adults, incapacitated
adults, uh, animals, I, I’m gonna grant the State’s request
for placement of the animals. Based upon the report that
I read and the initial uh, finding of probale cause and the
report that I, I know that’s not your position and I understand you’ve done a good job on behalf of your clients, but
I’m gonna place the animals.
		
Now, with regards to the, uh, trial date
MR. DALE ARNETT:
		
Your Honor, Uh, We’d move for a continuance,
we have a little bit more discovery to do and, and I’m not
asking to put it out a long ways may be sixty (60) days. I’ve
taken the deposition of Dr. Lovejoy, uh, and I didn’t, wasn’t
able to get all the answers that I needed. I’m gonna have to
depose Officer Lee, uh, because he was, I, I thought I could
get it with Dr. Lovejoy just didn’t get everything I needed.
THE COURT:
		
Understand, understand and I’ll grant that
request. Uh, Officer Lee, should be easily enough found, so,
you can depose him.
MR. DALE ARNETT:
		But
THE COURT:
		
How much time do you need?
MR. DALE ARNETT:
		
If, if we could about sixty (60) days I could get
every thing I need cause we have gotten some recent discovery and, uh, photos and, uh

77

THE COURT:
		State’s position?
MS. MELISSA CAMPBELL, DEPUTY PROSECUTING ATTORNEY:
		
We do note that would be granted over the
State’s objection.
THE COURT:
		
I, I did say that I was gonna grant that didn’t
I.
MS. MELISSA CAMPBELL, DEPUTY PROSECUTING ATTORNEY:
		Yes.
THE COURT:
		
I will show that over the State’s objection.
		
Alright about sixty (60) days. Last one Mr.
Arnett, we are gonna get this matter resolved.
MR. DALE ARNETT:
		Yes, yes.
THE COURT:
		
Alright, Nancy, somewhere between forty-five
(45) and sixty-five (65) days or seventy-five (75) days.
MS. NANCY ROBERTS, COURT REPORTER:
		
June the 9th.
THE COURT:
		
June the 9th.
MR. DALE ARNETT:
		
That works for me.
THE COURT:
		June 9th.
78

MS. MELISSA CAMPBELL, DEPUTY PROSECUTING ATTORNEY:
		Thank you.
THE COURT:
		
Anything else Mr. Arnett?
MR. DALE ARNETT:
		
No, Your Honor, thank you, very much.
THE COURT:
		Ms. Campbell?
MS. MELISSA CAMPBELL, DEPUTY PROSECUTING ATTORNEY:
		
No, thank you.
THE COURT:
		
Alright, we’ll be off the record.

STATE OF INDIANA
IN THE WASHINGTON CIRCUIT COURT
COUNTY OF WASHINGTON
STATE OF INDIANA
VS
SANDRA SWARTZ
JAMIE SWARTZ

CAUSE NO. 88C01-1406-CM-000325
88C01-1406-CM-000326

REPORTER’S CERTIFICATE
I, NANCY ROBERTS, Official Court Reporter of the
Washington Circuit Court, Washington County, State of Indiana, do hereby certify that I am a Court Reporter of said
Court, duly appointed and sworn to report the evidence of
79

causes tried therein.
I certify that the transcript, as prepared by me, is
full, true and complete.
IN WITNESS THEREOF, I have hereunto set my
hand and affixed my SEAL this 26” day of July 2017.
					s/ Nancy Roberts
					Nancy Roberts
					Official Court Reporter
					Washington Circuit Court		
				

				Respectfully Submitted,
				/s/ Dale Arnett
				Dale W. Arnett #13919-68
				102 E Hospital Drive
				Winchester, IN 47394
				Phone (765) 584-2507
				Fax (765) 584-2068
				Email: larnett1@frontier.net

80

